<html>
<title> - S. 313, S. 443, S. 633, AND H.R. 326</title>
<body><pre>[Senate Hearing 111-66]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-66

                  S. 313, S. 443, S. 633, AND H.R. 326

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

S. 313, WHITE MOUNTAIN APACHE TRIBE WATER RIGHTS QUANTIFICATION ACT OF 
                                  2009

              S. 443, HOH INDIAN TRIBE SAFE HOMELANDS ACT

 S. 633, TRIBAL HEALTH PROMOTION AND TRIBAL COLLEGES AND UNIVERSITIES 
                        ADVANCEMENT ACT OF 2009

                      H.R. 326, COCOPAH LANDS ACT

                               __________

                             APRIL 2, 2009


                               __________

         Printed for the use of the Committee on Indian Affairs






                  U.S. GOVERNMENT PRINTING OFFICE
51-274 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
_____, _____
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 2, 2009....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Cantwell....................................    53
    Prepared statement...........................................    54
Statement of Senator Dorgan......................................     1
Statement of Senator Kyl.........................................     3
    Prepared statement...........................................     4
Statement of Senator Tester......................................     5
Statement of Senator Udall.......................................    51

                               Witnesses

Lupe, Hon. Ronnie, Tribal Chairman, White Mountain Apache Tribe..     6
    Prepared statement with attachments..........................     8
Reyes, Hon. Jonette, Vice Chairperson, Hoh Indian Tribe..........    14
    Prepared statement with attachments..........................    15
Soto, Hon. Paul, Tribal Council Member, Cocopah Indian Tribe.....    35
    Prepared statement...........................................    36
Taylor, Linda D., Dean of Nursing, College of Menominee Nation...    38
    Prepared statement...........................................    39

                                Appendix

Gordon, Phil, Mayor, City of Phoenix, prepared statement.........    60
Jackson Sr., Mike, President, Quechan Tribe, Fort Yuma Indian 
  Reservation, prepared statement................................    57
Response to written questions submitted by Hon. Byron L. Dorgan 
  to 
  Hon. Paul Soto.................................................    62
S. 313 support letters submitted by:
    Anger, William H., Attorney, Engelman/Berger, P.C............    75
    Berman, Steven M., Mayor, Town of Gilbert, Arizona...........    77
    Brown and Brown Law Offices, P.C.............................    79
    Brown, Marshall P., General Manager, Water Resources 
      Department, City of Scottsdale, Arizona....................    81
    City of Tempe, Arizona.......................................    76
    Garfield, William M., President, Arizona Water Company.......    84
    Smith, Scott, Mayor, City of Mesa, Arizona...................    78
    Smith, Susan Bitter, President, Board of Directors, Central 
      Arizona Project............................................    82
    Williams, Jr., John M., President, Salt River Project........    73

 
                  S. 313, S. 443, S. 633, AND H.R. 326

                              ----------                              


                        THURSDAY, APRIL 2, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 o'clock a.m. 
in room 628, Dirksen Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. The hearing will come to order.
    This is a hearing of the Indian Affairs Committee in the 
United States Senate.
    This morning, the Committee will hold a hearing on four 
pieces of legislation dealing with lands, water and health 
education. These issues are vital to the long-term development 
of tribes as self-sufficient governments, and the two lands 
bills we will consider today would be instrumental in allowing 
the tribes to meet the infrastructure needs of their tribal 
memberships.
    The PATH Act is intended to strengthen the ability of 
tribal colleges and universities in their capacity to help 
native communities achieve greater health opportunities and 
more stable and secure families and greater economic 
competitiveness.
    The water settlement bill would ensure the tribes access to 
the water sources necessary to sustain the needs of the tribal 
community.
    Two of these bills, the PATH Act and the Cocopah Lands Act 
were introduced in the prior Congress. The Committee held a 
hearing on the PATH Act in the last Congress and has also 
addressed Indian lands and water settlement issues in the last 
Congress.
    So today we will hear from the tribes and organizations 
impacted by the legislation that we are considering. I want to 
mention that although the Administration is not a witness at 
today's hearing, we will seek their formal views on each of the 
bills before we consider them at a business meeting.
    The four bills are S. 313, the White Mountain Apache Tribe 
Water Rights Quantification Act. This bill would settle pending 
water claims filed by the United States on behalf of the Tribe 
in water rights adjudications in the Gila River and Little 
Colorado River basins in the State of Arizona.
    S. 443, the Hoh Indian Tribe Safe Homelands Act. This bill 
would direct the Secretary of the Interior to acquire certain 
National Park Service lands into trust for the benefit of the 
tribe.
    S. 663, the Tribal Health Promotion and Tribal Colleges and 
Universities Advancement Act. This bill, which I have 
cosponsored along with Senators Tester and Johnson on the 
Committee, would authorize a number of new programs for tribal 
colleges dealing with health promotion, wellness, disease 
prevention, economic development initiatives, and related 
research programs.
    And finally, H.R. 326, the Cocopah Lands Act. This bill 
would direct the Secretary of the Interior to acquire certain 
parcels of land in trust for the tribe as a part of the tribe's 
reservation.
    I will encourage interested parties to submit written 
comments to the Committee. The hearing record will remain open 
for two weeks from today. We will have witnesses provide 
testimony shortly.
    I want to note that Senator Kyl is here and wishes to make 
a comment at the start with respect to one of the bills. I 
believe Senator McCain was going to be here, but may not be 
able to be here because of business on the floor of the Senate.
    So I will call on the Vice Chairman.
    Senator Kyl, I will call on you following any comments, 
unless they wish to defer comments, but I will call on Vice 
Chairman Barrasso at this point.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. Thank you for 
holding this important hearing. I will be very brief.
    I want to welcome all the witnesses. You traveled great 
distances to be here and I appreciate you coming.
    I also welcome our good friend and colleague from Arizona, 
Senator Jon Kyl. Senator Kyl, as you know, authored one of 
these bills, the White Mountain Apache Tribal Water Rights 
Quantification Act. His bill would confirm a complex agreement 
reached after years of negotiations among various water user 
groups, districts and agencies, several Arizona municipalities, 
and the White Mountain Apache Tribe.
    I admire the hard work that Senator Kyl has put into this 
settlement. Water negotiations require a consistent and 
sustained effort by all parties to reach a successful 
conclusion. Settlement of water issues may take time, but the 
process brings certainty so no one is unduly burdened with 
risk.
    Thank you, Mr. Chairman. I look forward to hearing the 
testimony.
    The Chairman. Senator Tester?
    Senator Tester. I will pass, Mr. Chairman.
    The Chairman. Let us go to Senator Kyl, and then I will 
call on Senator Tester for his opening statement.
    Senator Kyl, welcome to the Committee.

                  STATEMENT OF HON. JON KYL, 
                   U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman. There is a 
markup in Judiciary which I need to get to, so I very much 
appreciate your courtesy and the other Members of the Committee 
as well.
    This White Mountain Apache Tribe settlement stands out 
because ordinarily Indian water rights settlements are very 
difficult, time consuming, hard to put together, costly and 
they just are difficult.
    Because of the goodwill of all the parties here, and to 
some extent the relative simplicity of the issues, this water 
settlement came together quite quickly and I think is in very 
good shape. Here is just the outline. My statement for the 
record will provide the details.
    Eastern Arizona has some beautiful mountains called the 
White Mountains. They get almost up to 12,000 feet. The White 
Mountain Apache Tribe has a good share of that country, and 
because of a lot of snowfall and quite a bit of rain, there is 
a lot of water that runs off of those mountains. But in the 
past, the tribe has not had the ability to capture and use that 
water, and didn't have the need for it at the time, so under 
Arizona water law most of that water was claimed by the cities 
in the central part of the State because it ran all the way 
down to them.
    The tribe, backed by the United States Government, has made 
claims now to those tributaries, and this settlement settles 
all of those claims, provides the White Mountain Apache Tribe 
with just under 100,000 acre feet of water, and resolves all of 
the claims so that there is certainty now with the cities as to 
how much they have.
    The remaining problem for the tribe, though, was a critical 
people problem. They are running out of drinking water, and 
this settlement translates their water right on paper to a 
drinking water project that serves the bulk of the community.
    We got a head start on that last year, passing the bill 
that provided a loan of about $9 million to begin that project 
so that we could save something like $20 million or $30 million 
by getting started on it quickly. So we have already started 
it, and what the project does is to divert water from one of 
these tributaries. There is a small reservoir that will 
created, and then water treatment facilities and related piping 
to the various communities.
    So it is a great settlement, and I attribute, Mr. Chairman, 
a lot of the success of this to the Tribal Council led by 
Ronnie Lupe, who is the Tribal Chairman, who is here. The 
entire Council attended every one of the meetings, which is, 
you know, ordinarily you have the lawyer here. Well, in this 
case while they have a fine lawyer, the lawyer sat in the 
second row and the Council did the horse trading, as the 
Chairman likes to put it, and because of their strong 
commitment to this, the settlement came together very well.
    So I really appreciate the Committee's holding this hearing 
today, and want to commend the testimony of Chairman Ronnie 
Lupe, who has really led these negotiations to the successful 
conclusion that has come about.
    And I thank you, Mr. Chairman.
    [The prepared statement of Senator Kyl follows:]

     Prepared Statement of Hon. Jon Kyl, U.S. Senator from Arizona

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Senator Kyl, thank you very much.
    I would observe that this Committee, as you know, passed 
the legislation last year for the loan that you described, and 
also worked with our House counterparts in order to get that 
done. We are pleased to have done that. I think that is an 
important first step on the journey to trying to resolve this 
issue.
    Thank you for being here.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman.
    I will save my comments for Senate bill 633, which is the 
PATH Act. We all know the unacceptable levels of poverty and 
unemployment in Indian Country. What this bill will aim to do 
is also address another challenge in Indian Country, and that 
is the challenge of appropriate health care.
    By empowering our tribal colleges to train Indian people to 
meet the needs of Indian people in Indian Country, I think the 
PATH Act will be a giant step forward, using education as the 
key to opportunity, training health care professionals that 
will be able to work anywhere they choose, but hopefully most 
of them will be able to work in Indian Country addressing the 
issues that revolve around the challenges with health care in 
Indian Country.
    So Mr. Chairman, I just want to thank you for the 
opportunity to have this hearing. Again in this Congress, I 
look forward to working to get this bill through the process.
    The Chairman. Senator Tester, thank you very much.
    We have four witnesses today at our hearing. And as is 
usually the case, what happens to us is the schedule in the 
Senate is not very accommodating. We are going to begin what is 
called a vote-a-thon. That is, we will have 20 or 30 or perhaps 
even more votes today, beginning in about one hour.
    Some had suggested that perhaps we should cancel committee 
hearings this morning. I wanted to go ahead and have this 
hearing because people have traveled to come to attend this 
hearing and testify, and these are important pieces of 
legislation to the tribes that are involved. And so we will by 
necessity perhaps have to limit the hearing to an hour.
    But we appreciate very much the time all of you have taken 
to come and explain your perspective about the various pieces 
of legislation.
    We are joined today by the Honorable Ronnie Lupe, the 
Tribal Chairman of the White Mountain Apache Tribe in 
Whiteriver, Arizona.
    Mr. Lupe, we are pleased that you are here.
    We are joined also by the Honorable Jonette Reyes, Vice 
Chairperson of the Hoh Indian Tribe in Forks, Washington.
    We are very pleased that you have come to the Committee 
today.
    The Honorable Paul Soto, the Tribal Councilman of the 
Cocopah Tribe in Somerton, Arizona.
    Mr. Soto, welcome.
    And Ms. Linda Taylor, the Dean of Nursing at the College of 
the Menominee Nation in Keshena, Wisconsin.
    Ms. Taylor, we welcome you.
    We will begin, Mr. Lupe, with you.
    Your entire statement, I would say to all four witnesses, 
will be made a part of the permanent record of this Committee. 
We would encourage you to summarize, and we very much 
appreciate your being here, so you may begin.

STATEMENT OF HON. RONNIE LUPE, TRIBAL CHAIRMAN, WHITE MOUNTAIN 
                          APACHE TRIBE

    Mr. Lupe. Chairman Dorgan, Vice Chairman Barrasso, 
Committee Members, thank you for the opportunity to testify in 
support of S. 313, Senate bill 313, the White Mountain Apache 
Water Rights Quantification Act of 2009.
    My name is Ronnie Lupe. I am the Tribal Chairman of the 
White Mountain Apache Tribe. We live on the Fort Apache Indian 
Reservation in the White Mountains about 200 miles northeast of 
Phoenix. We have lived there since time immemorial. Our 
reservation has over 1.6 million acres of trust land.
    The headwaters of the Salt River system are on our 
reservation. One-third of the cold water streams in the State 
of Arizona are on our land. We have Indian reserve rights to 
that water.
    Our reservation streams merge and become the Salt River, 
which flows downstream to Phoenix metropolitan area and to the 
3.5 million people who live there. Thirty years ago, lawsuits 
were filed in the Arizona State courts to determine everyone's 
water rights to the Gila River, Salt River, the Little Colorado 
River and their tributaries. These lawsuits have cost millions 
of dollars with no end in sight and create uncertainty for 
everyone about their water rights.
    We have a drinking water problem crisis on our reservation. 
Although we have hundreds of miles of streams, we do not have 
sufficient safe, clean and reliable drinking water for our 
people, schools, hospitals, and reservation residents. The 
reason is mother nature. We are 100 percent dependent on a well 
field that was built in 1999, and 14,000 people on our 
reservation depend on it, almost our entire population.
    The well field is failing fast. Production is down to half 
of what it was in 1999. There is no recharge. There is natural 
arsenic in the groundwater. We have to blend it to meet EPA 
standards. Drinking water must be hauled by hand in one 
community and piped into another. Drilling more wells will not 
help.
    Tribal, Federal and Salt River experts agreed that our 
groundwater aquifers discharge into our springs and rivers, and 
that our drinking water needs can only be met by surface water, 
and then only by building a reservoir on the north fork of the 
White River.
    Years ago when we came to Washington, D.C. to ask for help 
to build a reservoir, treatment plant and pipeline, we were 
politely told that we had to quantify and settle our Indian 
reserve water rights if we hoped to obtain congressional and 
State support to fund it. They called it a global settlement. 
The trustee of the United States said the same thing.
    Although the litigation, hostility and natural suspicion 
existed between us and our Trustee, the United States, the SRP 
and other downstream water users, we realized that we had to 
change in order to progress. In 2004, we asked the Secretary of 
the Interior to appoint a Federal negotiation team to help us 
quantify and settle our reserve water rights.
    At the same time, we ended almost 50 years of hostility 
between us and the Salt River Project. We invited the SRP, the 
Phoenix negotiators to come visit our sacred springs. There, I 
reminded them that our springs had built many skyscrapers in 
the Phoenix Valley. They came and listened. We listened and 
respect replaced hostility. We talked to them about reaching a 
dignified, honorable and equitable settlement of our trust 
reserve water rights.
    A lot of horse trading went on, went on. We finally 
approved a water rights settlement agreement in January, 2009 
with downstream State parties. It has been approved by our 
tribe, the governing bodies, and the Boards of Directorship of 
the State parties.
    The cornerstone of our settlement agreement and the S. 313 
is a reservation-wide drinking water system. We call it the 
Miner Flat Project. The project will require a dam and small 
reservoir of about 6,000 acre feet active storage on the north 
fork of the White River. The maps attached to my written 
testimony show the location of the proposed Miner Flat 
Reservoir, treatment plant, and a pipeline to serve several 
communities all the way to Cibecue, about 50 miles away. The 
reservoir will meet our drinking water needs for decades to 
come.
    That is my statement for the time, five minutes time now, 
and I am ready for the questions.
    [The prepared statement of Mr. Lupe follows:]

Prepared Statement of Hon. Ronnie Lupe, Tribal Chairman, White Mountain 
                              Apache Tribe
    Chairman Dorgan, Vice Chairman Barrasso and members of the 
Committee:
    Thank you for the opportunity to testify in support of S. 313, the 
White Mountain Apache Tribe Water Rights Quantification Act of 2009. My 
name is Ronnie Lupe. I am the Tribal Chairman of the White Mountain 
Apache Tribe. We live on the Fort Apache Indian Reservation upon 
aboriginal lands which we have occupied since time immemorial. Our 
Reservation is located about 200 miles Northeast of Phoenix in the 
White Mountain Region of East Central Arizona as illustrated in the 
attached map.
    S. 313 will quantify, preserve, recognize, and settle the reserved 
water rights of the White Mountain Apache Tribe in perpetuity, provide 
Tribal waivers and releases of claims regarding all State law water 
users in the Gila River and Little Colorado River basins and against 
United States (except for the United States acting as trustee on behalf 
of other Indian Tribes). \1\
---------------------------------------------------------------------------
    \1\ Tribal waivers of potential water related breach of trust 
claims against the United States far exceed the authorization in S. 313 
for approximately $166 million in federal appropriations for (1) the 
OM&R Trust Fund for the Miner Flat Project; (2) existing lakes 
infrastructure enhancement; (3) fish hatchery repair, rehabilitation 
and expansion; (4) fisheries Center; (5) repair of existing irrigation 
systems; (6) forest management study and Sawmill retooling to 
accommodate smaller diameter trees; (7) snowmaking infrastructure; and 
(8) future lake development.
---------------------------------------------------------------------------
    The White Mountain Apache Tribe holds full beneficial title to 1.66 
million acres of trust land in the east central highlands of the State 
of Arizona. The Tribe's Fort Apache Indian Reservation was established 
by Executive Order in 1871. We have retained actual, exclusive, use and 
occupancy of our aboriginal lands within the boundaries designated by 
the Executive Orders dated November 9, 1871 and December 14, 1872, 
without exception, reservation, or limitation since time immemorial. 
The Tribe's vested property rights, including its aboriginal and other 
federal reserved rights to the use of water, often referred to as 
Winters Doctrine Water Rights, that underlie, border and traverse its 
lands, have never been extinguished by the United States and are prior 
and paramount to all rights to the use of water in the Gila River 
drainage, of which the Salt River is a major source.
    Except for a small portion of the Reservation that drains to the 
Little Colorado River Basin, virtually the entire Reservation drains to 
the Salt River. The headwaters and tributaries of the Salt River arise 
on our Reservation and are the principal sources of water for the 
Tribe, the downstream Cities of Avondale, Chandler, Gilbert, Glendale, 
Mesa, Peoria, Phoenix, Scottsdale and Tempe; the Salt River Reclamation 
Project and the Roosevelt Water Conservation District, among other 
parties to the Gila River and Little Colorado Adjudication Proceedings.
    In 1985, the United States in its capacity as the Tribe's Trustee, 
filed a substantial reserved water rights claim in the name of the 
White Mountain Apache Tribe to the Salt River as part of the Gila River 
Adjudication Proceedings still pending in the Maricopa County Superior 
Court, State of Arizona. It also filed claims for the Tribe in its 
capacity as trustee in the Little Colorado River Adjudication 
Proceedings also still pending in the Apache County Superior Court, 
State of Arizona.
    At the urging of the Tribe, the United States amended its water 
rights filings for the Tribe in the Little Colorado River and the Gila 
River General Stream Adjudications in September 2000, to assert the 
Tribe's prior and paramount, aboriginal and federal reserved rights to 
the transbasin aquifer sources that sustain the base flow of the 
Tribe's Reservation springs and streams. The amended claim filed by the 
United States in its capacity as trustee for the Tribe, specifically 
recognizes the Tribe's unbroken chain of aboriginal title and time 
immemorial priority rights to the base flow of the springs and streams, 
and the contribution to those surface waters by rainfall and snowmelt 
runoff on the Tribe's Reservation.
    For decades, the White Mountain Apache Tribe has asserted its 
rights to preserve, protect, use and develop its aboriginal and 
federally reserved water rights. As late as the 1950s, a physical 
confrontation became imminent between the Tribe and downstream water 
claimants when the Tribe began to develop outdoor recreation lakes on 
its Reservation trust lands by diverting water from Reservation 
streams. This activity was considered a threat to water supplies in the 
Salt River system by downstream water users in the Phoenix Metropolitan 
area and was vigorously opposed. A litany of water right controversies 
involving the White Mountain Apache Tribe, the United States in its 
role as the Tribe's conflicted trustee, and the Salt River Valley 
Reclamation Project has predominated throughout the 20th century, all 
of which will be resolved by S. 313.
    Since the appointment of a Federal Negotiating Team by the 
Secretary of the Interior in 2004, we have met and negotiated in good 
faith with the downstream water users and claimants in both the Gila 
River and Little Colorado River Adjudication Proceedings to reach an 
honorable, dignified and equitable quantification and settlement of our 
Tribe's reserved water rights.
    The White Mountain Apache Tribe Water Rights Quantification 
Agreement, which was respectfully negotiated amongst all parties, has 
been concluded and has been formally approved by the White Mountain 
Apache Tribe and by the majority of the downstream parties' respective 
governing bodies in the greater Phoenix Metropolitan area, including 
the Board of Directors of the Salt River Project and the Central 
Arizona Water Conservation District (CAWCD). The remaining City 
approvals are only a matter of formality and scheduling, and will be 
completed by the end of April 2009.
    The Tribe's sizable and senior water rights claims in the pending 
Gila River and Little Colorado River Adjudication Proceedings have 
generated considerable uncertainty regarding the availability of Salt 
River water supplies currently used by the downstream Salt River 
Project, which serves the greater Phoenix Metropolitan area. As many as 
3.5 million people depend in large part upon the water sources that 
arise on the Fort Apache Indian Reservation to which the White Mountain 
Apache Tribe claims sufficient water to meet its present and future 
needs. The WMAT Water Rights Quantification Act of 2009, which will 
authorize and confirm the Parties' Settlement Agreement will resolve 
uncertainties among all of the parties and claimants in both the Gila 
River and Little Colorado River Basins.
    S. 313 will also resolve potential claims by the White Mountain 
Apache Tribe against the United States for water related breach of 
trust damage claims that could potentially result in liability far in 
excess of the funding authorized by S. 313. Specifically, beginning 
with the completion of Roosevelt Dam for the Salt River Reclamation 
Project in 1911, the trustee United States, acting by and through its 
principal agent, the Secretary of the Interior, has as a matter of 
policy, suppressed, neglected, ignored, and opposed the reserved water 
use rights of the White Mountain Apache Tribe. These policies, fostered 
by an inherent conflict of interest on the part of the Secretary, 
favored development of the non-Indian Salt River Project at the expense 
of the welfare of the White Mountain Apache Tribe.
    For example, as set forth in greater detail in the Tribe's Paper 
\2\ on the liability of the United States for water related, breach of 
trust damage claims, the Secretary of the Interior in the 1960s 
intentionally destroyed thousands of Cottonwood trees and other 
riparian vegetation along the Tribe's streams to increase water runoff 
to the Salt River Valley and Roosevelt Reservoir. The Secretary also 
cleared thousands of acres of Juniper trees under the auspices of 
rangeland restoration for the purpose of increasing runoff. The 
ecosystem damage from this action continues and is ongoing. The cost of 
riparian restoration is in the millions of dollars.
---------------------------------------------------------------------------
    \2\ This Paper, outlining the potential liability of the United 
States for breach of trust for water related damage claims, will be 
filed with the Secretary of the Interior.
---------------------------------------------------------------------------
    Another example of a water related, breach of trust damage claim 
that will be waived by the Tribe in S. 313, are damages to water rights 
resulting from the doubling of the annual allowable cut of the Tribe's 
commercial forests by the Secretary for the purpose of increasing water 
runoff from the Tribe's Reservation to Roosevelt Reservoir.
    Other potential water related, breach of trust damage claims, inter 
alia, which are discussed in the Liability Paper and that will be 
waived by S. 313, will be claims arising from:

  <bullet> an historic failure to maintain approximately 90 miles of 
        irrigation ditches on the Reservation (waived after funding 
        received to repair)

  <bullet> failure to support future OM&R expenses for the Miner Flat 
        Dam Project Rural Water System (waived after OM&R Trust Fund 
        established)

  <bullet> an historic failure to meet the trust obligation to provide 
        a safe drinking water supply for the Tribe,

  <bullet> suppression of agricultural irrigation to date,

  <bullet> expense of litigating the Tribe's reserved water rights 
        claims,

  <bullet> failure of the Secretary to reserve Tribe's water from 
        contracts issued downstream for storage after Roosevelt Dam was 
        originally built in 1911,

  <bullet> failure of the Secretary to set aside New Conservation 
        Storage (NCS), for the White Mountain Apache Tribe in the 1995-
        1996 enlargement of Roosevelt Reservoir (result is that Tribe 
        compelled to obtain 25,000 acre-feet of CAP instead of Salt 
        River Water valued by SRP at $6,000 per acre-ft.),

  <bullet> failure of the United States to assert the reserved water 
        rights of the White Mountain Apache Tribe in the EIS for the 
        reallocation of CAP water, and

  <bullet> holding the trustee United States harmless by the Tribe 
        relinquishing 26,000 acre-feet diversion annually for the 
        Reservation's Bonito Prairie area.

    The Tribe and Reservation residents are in urgent need of a long-
term solution for their drinking water needs. Currently the Tribe is 
served by the Miner Flat Well Field. Well production has fallen sharply 
and is in irreversible decline. Over the last 8 years, well production 
has fallen by 50%, and temporary replacement wells draw from the same 
source aquifer that is being exhausted. The Tribe experiences chronic 
summer drinking water shortages. There is no prospect for groundwater 
recovery. The quality of the existing water sources threatens the 
health of our membership and other Reservation residents, including the 
IHS Regional Hospital and State and BIA schools. The only viable 
solution is replacement of failing groundwater with surface water from 
the North Fork of the White River. A small water division system along 
the White River (North Fork Diversion Project) will help the Tribe's 
short term drinking water needs, but this is only a temporary measure 
to replace the quickly failing well field.
    Without reservoir storage behind Miner Flat Dam, a feature 
authorized by S. 313, the stream flows of the North Fork of the White 
River, supplemented by short-term capacity of the Miner Flat Well 
Field, are together inadequate to meet community demands of the White 
Mountain Apache Tribe for the Greater Whiteriver Area, Cedar Creek, 
Carrizo and Cibecue and to maintain a minimum flow in the North Fork of 
the White River. The demands of the Tribe for its Rural Water System as 
proposed in H.R. 1065 and S. 313 will dry up the North Fork of the 
White River before 2020, even in combination with a supplemental supply 
from the Miner Flat Well Field. Therefore, Miner Flat Dam is necessary 
to store 6,000 acre feet of water during runoff periods for release and 
enhancement of the North Fork of the White River to meet demands of the 
Reservation rural water system and maintain a minimum flow for aquatic 
in riparian habitat preservation and enhancement.
    The WMAT Rural Water System, including the Miner Flat Dam Storage 
Facility, water treatment plant, and pipeline to deliver drinking water 
to Reservation communities is the cornerstone of the WMAT Water Rights 
Quantification Act of 2009 and the Settlement Agreement. The 
Quantification Act and Settlement Agreement will confirm the Tribe's 
and other settling parties' water rights without prolonged, protracted 
and expensive litigation that began in 1979, and could last for decades 
more. The Miner Flat Project will replace the failing groundwater well 
system and enable the Tribe to construct a secure, safe and reliable 
drinking water supply for the current 15,000 White Mountain Apache 
Tribal members and residents living on our Reservation and will meet 
the increasing drinking water needs of the Reservation for a future 
population of nearly 40,000 persons in the decades to come. See 
attached Miner Flat Reservoir and Pipeline Location Map.
    Last year, on September 11, 2008, I testified in support of S. 
3128, the White Mountain Apache Tribe Rural Water System Loan 
Authorization Act, which became law on October 10, 2008 (Pub. L. 110-
390). The $9.8 million authorized by that law will allow the Tribe to 
complete within the next two to three years, the design, engineering, 
planning, and federal environmental compliance for the proposed Miner 
Flat Dam drinking water system thereby saving millions of dollars in 
construction costs that inflation will generate with delay in the 
design and construction of our project.
    In settlement negotiations, the White Mountain Apache Tribe agreed 
to relinquish its water rights claims on Bonito Prairie, totaling 
26,000 acre feet annually for irrigation, and opted instead for 
rehabilitation of existing recreation lakes, development of new 
recreation lakes, forest management and timber manufacturing 
improvements, snowmaking at our ski area and other economic development 
features embraced by S. 313. These provisions in S. 313 are essential 
to our future and were a significant factor in reaching the settlement 
agreement, now before Congress for approval, with the downstream 
parties.
Conclusion
    The White Mountain Apache Tribe appreciates the opportunity to 
appear before the Committee, the co-sponsorship of S. 313 by Arizona 
Senators Jon Kyl and John McCain, and unanimous support of S. 313 by 
the settling State parties to the White Mountain Apache Water Rights 
Quantification Agreement.
Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Chairman Lupe, thank you very much.
    Just for information, what is the enrolled membership of 
your tribe?
    Mr. Lupe. Fourteen thousand, presently.
    The Chairman. Thank you very much.
    Next, we will hear from the Honorable Jonette Reyes, Vice 
Chairperson of the Hoh Indian Tribe in Forks, Washington.
    Ms. Reyes, thank you very much. You may proceed.

 STATEMENT OF HON. JONETTE REYES, VICE CHAIRPERSON, HOH INDIAN 
                             TRIBE

    Ms. Reyes. Good morning. My name is Jonette Reyes. I am the 
Vice Chairperson for the Hoh Indian Tribe. Good morning, 
Chairman Dorgan, Vice Chairman Barrasso, Mr. Tester.
    Our bill was introduced by Maria Cantwell. The purpose of 
the bill, it is called the Hoh Tribe Safe Homelands Act, bill 
S. 443. Here, you will see our reservation is fairly small. We 
live in the flood zone. We live in the western Jefferson 
County. It is a rural part of the county that is separated by 
Clallam County. And we live in tsunami territory.
    We have acquired some land within the last couple of years 
to try to move our tribe out of flood zone. The bill is 
basically to transfer 37 acres of Olympic National Park into 
trust in order to make our land contiguous. We have another, I 
think we have another poster, that will show parcels. We have 
acquired parcels. On our own, we purchased Rainier property 
which is on 101, and the Rainier property is, you know, 
basically the property that we started out with, other than our 
land we have already acquired.
    Okay, there is Rainier property, other property that we 
purchased from homesteaders that live around the reservation. 
And then we got some land from the Department of Natural 
Resources transferred to the Hoh Tribe. The only thing that is 
keeping land contiguous is the 37 acres of Olympic National 
Park.
    As I say, we live in flood zone, tsunami territory. We have 
flooding every year for as long as I can remember. I am 30-plus 
years old, and we always deal with flooding. There were times 
when we had river boats picking us up at our front doors to 
deliver us to higher ground, which is now in the flood zone, 
and we have to move even higher.
    So we are not asking for any land other than the 37 acres 
of park which was, you know, in discussion with the park, they 
are not certain how they acquired the land themselves. And we 
have had discussion at local level and we have also started out 
our main discussions here.
    With whatever directive that we were given here, with the 
parks, and with Natural Resources, we have gone back and 
followed through with every directive that they have given.
    We have worked recently with Jefferson County to reopen 
Fire District 7. We don't have a fire district that serves our 
county. And like I said, we are the rural part of western 
Jefferson County. We are not located within the county area 
itself. We are like about three hours away, so we don't get the 
services of the county.
    So when there are storms and floods, you know, it is kind 
of, the resources are hard to find. We usually use our, you 
know, our money that we have, no other county resources which 
we should be available to because we are in a tsunami zone.
    I am drawing a blank.
    [Laughter.]
    The Chairman. Ms. Reyes, let me ask you a question. I 
understand that your reservation as it was originally 
established is one square mile in size.
    Ms. Reyes. Right, but we have purchased more land. The only 
thing that is keeping, you know, the transfer from happening of 
the land into trust is the 37 acres of the park land that we 
are asking for.
    The Chairman. And would the 37 acres connect your 
reservation to the other part?
    Ms. Reyes. It would be contiguous all the way up to the 
land that we have acquired. And then, you know, we are not 
eligible right now to get any, you know, new housing. Our 
houses, you know, the people who live on our reservation, the 
families are like two- and three-family households within one 
house. And we are not eligible to apply for any other grants 
because we are in flood territory.
    The Chairman. I understand. Most of the reservation is in a 
flood zone.
    Ms. Reyes. Yes.
    The Chairman. How many enrolled members in your tribe?
    Ms. Reyes. Three hundred plus.
    The Chairman. All right.
    Ms. Reyes. Yes.
    The Chairman. All right. Well, I think we have the picture. 
It is a pretty significant issue. You need to be able to 
acquire this land, the park land, in order to connect to other 
property that you have acquired in a Federal flood zone. All 
right.
    Ms. Reyes. And on a regular basis, like this spring, the 
snow is melting and everything, and we have flooding. We are 
actually expecting a storm by the time we get home, so will 
most likely have flooding. And we sandbag regularly with 
members of the OCC, I mean, Olympic Correctional people.
    [Laughter.]
    The Chairman. All right. Thank you.
    Ms. Reyes. So.
    The Chairman. Those of us from North Dakota know about 
flooding and sandbagging these days.
    Ms. Reyes. Right.
    [Laughter.]
    The Chairman. It's a very difficult time.
    Thank you very much for telling us the story of the need. I 
think it is compelling. Senator Cantwell may be joining us 
before we complete this hearing, and we will of course ask her 
to comment as well, but we appreciate your being here.
    Ms. Reyes. Thank you for the time.
    [The prepared statement of Ms. Reyes follows:]

Prepared Statement of Hon. Jonette Reyes, Vice Chairperson, Hoh Indian 
                                 Tribe
    Chairman Dorgan, Vice Chair Barrasso, Senator Cantwell, and other 
Members of the Committee, I am Jonette Reyes, Vice Chair of the Hoh 
Indian Tribe from Washington State on the Olympic Peninsula. 
Accompanying me today from the Hoh Tribe are Chairman Walter Ward, his 
wife and tribal member Katherine Ward, Council Member Marie Riebe, 
Council Member Dawn Gomez, and Tribal Administrator Alexis Barry. It is 
a great honor for me to testify before you on behalf of my people and 
in support of this bill.
    I would like to begin by thanking Senator Cantwell and Senator 
Murray for introducing S. 443, the ``Hoh Indian Tribe Safe Homelands 
Act.'' Their support for this bill means a great deal to us. Along with 
Congressman Norm Dicks on the House side, they and their staffs have 
been wonderful in working with us to solve the serious land and water 
problems we face. We would also like to thank our representatives in 
the Washington legislature, Senator Jim Hargrove, Representative Lynn 
Kessler, and Representative Kevin Van De Wege for their strong support 
and commitment to this legislation.
    Today's hearing is an important step toward realizing our dream: a 
safer place to live. It has been a very long journey for us, and we 
would not have made it this far were it not for the steadfast 
dedication, perseverance, and vision of our Council and our tribal 
members. Our hope is that this legislation will help the Hoh Tribe to 
grow and prosper on lands safe for our children and elders.
    For as long as anyone can remember, the Hoh people have lived near 
the mouth of the Hoh River where it flows into the Pacific Ocean. The 
Blue Glacier and other smaller glaciers on Mount Olympus in the Olympic 
National Park feed the Hoh River. Our traditional history teaches us 
that ``the Upside Down People,'' as we call ourselves, were created 
here and blessed with plentiful smelt in the waters to fish. We also 
traveled inland into the coast range of the Olympic Mountains and by 
canoe in the Pacific Ocean north into Canada and south to Quinault.
    Our lives were changed, however, when the 1856 Quinault Treaty 
preserved our rights to fish, hunt, and gather roots and berries in 
parts of our ancestral territory but greatly diminished our land base. 
In 1893, 37 years after the Quinault Treaty was signed, President 
Grover Cleveland set aside 640 acres of land, one square mile, bordered 
by the Hoh River and the Pacific Ocean. This is our current homeland, 
the Hoh Indian Reservation. We are still living along the Ocean and the 
Hoh River, but we cannot move upland like we once could.
    The Hoh Indian Reservation is located 30 miles south of the town of 
Forks, Washington, where the closest grocery store is located. While we 
are rich in culture, our 230 tribal members face serious educational, 
health care, and housing challenges. Although our tribal education 
programs are making a positive difference for our people, about half of 
our tribal members who are 25 years or older have not received a high 
school diploma or GED. It takes an ambulance about 45 minutes to 
respond to a call at our remote location, and about 45 minutes to get 
the patient to the hospital in Forks. Jobs are scarce, so about 70% of 
the 130 tribal members who reside on the Reservation are unemployed. We 
are blessed with many children and grandchildren, 60% of our population 
is under 18 years of age, but our baby boom makes housing and child 
care an issue for Hoh families.
    The waters that provide for us also pose the threat of danger from 
floods and tsunamis to our people and our lands. The Ocean and the 
River have slowly claimed our lands through erosion and changes in tide 
and river course. In fact, the 640 acres of the original Reservation 
land base now includes only 443 acres of dry land, more than a 30% 
decrease. The exact causes of this encroachment are not clear, but we 
believe that climate change is impacting us. The glaciers on Mount 
Olympus are melting and feeding more water to the River than we have 
seen in the past. Also, the Army Corps of Engineers stopped dredging 
the River years ago, so that may be a contributing cause as well.
    Ninety% of the Hoh Reservation is now located within a 100 year 
flood plain, and 100% is located within a tsunami zone. Winter and 
spring floods now regularly impact Reservation homes, government 
facilities, and utility structures. Flooding restricts further 
development and causes ongoing problems with existing structures. In 
addition to the flooding danger, all of the Reservation facilities and 
homes are at or below 40 feet elevation and within inundation zones if 
a major tsunami were to strike.
    Mr. Chairman, we empathize with the people of Fargo, North Dakota, 
and the surrounding areas who have seen the Red River swell to historic 
highs. In 2006, we purchased and filled 6,000 sand bags to protect 
homes and tribal buildings. Inmates from the Olympic Correctional 
Center helped our community members in making and placing the sand 
bags, which we greatly appreciate. Unfortunately, flooding still 
destroyed or severely damaged many buildings, our waste water treatment 
system, and other utility structures, causing critical environmental 
and safety hazards. Sand bags now create a permanent grass-covered berm 
around our Tribal Center that FEMA tells us is a health hazard.
    We have turned to federal agencies such as the BIA, HUD, and FEMA 
for assistance, but these agencies are limited in what they can do to 
help because of the dangerous and unsustainable location of the 
Reservation.
    A recent survey indicates that there are less than 73 acres of 
lands within the 443 acres of dry land of the Reservation that may be 
suitable for building. Flood plain, wetlands, buffers, slopes, and 
cultural exclusion areas all impact the land area available for the 
future needs of the Tribe. Most of the 73 acres is in areas that are at 
the extreme southern edge of the Reservation and not practical for 
development due to ocean cliffs, potential erosion, wetlands, and 
protected habitat. There are 11 acres of land that have been surveyed 
for development of housing above the flood plain, but this land is 
still within the area of danger from tsunami, prohibiting HUD from 
providing us funding to build in this area. Of the 30 homes located on 
the Reservation, many of them are in serious disrepair and 
approximately 20 of them have two or more families living in them. No 
new home has been built on the Reservation in 20 years. There is an 
immediate need to build 20 to 30 homes and growth projections are for 
at least 60 additional homes within 40 years.
    We do not come to this Committee without having taken significant 
steps to help ourselves. Over the past year and a half, we have 
purchased two parcels of land near the Reservation to the East, upland 
from the Ocean. The ``HOH INDIAN TRIBE SAFE HOMELANDS ACT LAND 
ACQUISITION MAP'' shows the two tracts we have purchased: the Fletcher 
Tree Farm parcel, approximately 195 acres, and the Rayonier parcel, 
approximately 65 acres. We do not have gaming on our Reservation 
because of its remote location, so the decision to purchase these lands 
demonstrates our commitment to move our people to a safer area.
    The fee lands described above are separated from our current 
Reservation by a 37-acre parcel of non-pristine land owned by the 
National Park Service, and the only road to the Reservation crosses 
this parcel. Based upon extensive collaboration with the Olympic 
National Park, the National Park Service Pacific West Region, and other 
National Park Service personnel, the legislation would place the 37-
acre National Park Service parcel into trust for the benefit of the 
Tribe. The legislation sets forth restrictions on the use of the 
National Park Service land being transferred by prohibiting the 
placement of any buildings or other structures on the land and banning 
any major improvements or road construction. Further, logging and 
hunting would be prohibited on the land. The legislation contains 
provisions for cooperative efforts between the Tribe and the National 
Park Service to enter into mutual aid agreements for emergency fire 
response, agreements on the development of hiking trails from Highway 
101 to the Pacific Ocean, and agreements on programs for the public to 
learn about the culture and traditions of the Tribe.
    Also providing enormous support to this effort, the Washington 
State Legislature and Governor Gregoire authorized the transfer of a 
160-acre parcel of State Department of Natural Resources land to the 
Hoh Tribe. This land is a short distance and upland from our current 
Reservation.
    This bill would direct the Secretary of the Interior to take the 
lands purchased by the Tribe, the lands transferred to the Tribe by the 
State, and the National Park Service lands into trust for the Hoh 
Tribe, adding a contiguous, upland area to the Hoh Reservation. It 
would prohibit gaming under the Indian Gaming Regulatory Act on any of 
these lands.
    We thank you for the opportunity to offer this testimony. This 
legislation represents new hope for the Hoh people, and we look forward 
to working with you on its passage.
Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Finally, Mr. Paul Soto, the Tribal Councilman 
from the Cocopah Tribe in Somerton, Arizona.
    Mr. Soto?

  STATEMENT OF HON. PAUL SOTO, TRIBAL COUNCIL MEMBER, COCOPAH 
                          INDIAN TRIBE

    Mr. Soto. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to appear before you today on behalf of 
the Cocopah Indian Tribe to discuss the Cocopah Lands Act, H.R. 
326.
    My name is Paul Soto. I am a member of the Cocopah Indian 
Tribe. I have served intermittently for 36 years in various 
capacities in the Cocopah Tribal Government and have served 20 
years as a Tribal council member. I am currently serving as the 
Tribal Resource Planner and Acting Tribal Council Secretary.
    In the early part of this decade, the Cocopah Indian Tribe 
requested fee-to-trust service of the Fort Yuma Bureau of 
Indian Affairs office in facilitating the process to convert 
tribally-owned fee land to trust land. Due to limited 
resources, the Fort Yuma office was not equipped to provide 
such service.
    The tribe was directed to the Bureau of Indian Affairs 
regional office. However, the regional office at that time 
directed the process back to the local Fort Yuma office. 
Because this appeared to be the start of an ongoing unsolvable 
dialogue, the tribe was advised by the Fort Yuma office to 
initiate a more direct approach.
    After five years of working with U.S. Representative Pastor 
and U.S. Representative Grijalva, this direct approach has 
brought me before you today. In 2002, Representative Pastor 
first introduced the Cocopah Lands Act, H.R. 5000, during the 
107th Congress. The bill was introduced on June 22, 2002, sent 
to the House Committee on Natural Resources, where it stayed 
without further development.
    At that time, the second port of entry along the U.S.-
Mexico border near San Luis, Arizona, was introduced and became 
a priority for Representative Pastor and the Cocopah Indian 
Tribe. Since the first introduction of this very important 
legislation, Representative Grijalva has replaced 
Representative Pastor as representative of our district.
    The Tribal Council requested the support of Representative 
Grijalva in sponsoring the reintroduction of the Cocopah Lands 
Act, which he fully supported, and took up efforts on behalf of 
the tribe. Representative Grijalva introduced the bill in 2006 
during the 109th Congress and again on January 24th, 2007 
during the 110th Congress.
    The tribe is requesting congressional support to place five 
properties that are divided into seven individual parcels into 
trust to be included as part of the reservation. The five 
properties would increase the total size of the currently 6,500 
acre reservation by 422 acres, with the majority of the acreage 
being used as agricultural land.
    Currently, the Cocopah Reservation consists of three non-
contiguous reservations called the North, West and East 
Reservations. Our community members reside in all three 
reservations and much of that land is leased as agricultural 
land.
    As stated by the Cocopah Tribal Chairwoman Sherry Cordova, 
when we purchased the different parcels in the 1980s and 1990s, 
it was the only way we could secure the land to continue in our 
efforts to expand much-needed infrastructure for the people. If 
we are able to get these lands into trust, it would be a great 
thing for our tribe, to be able to make decisions, plan and 
build knowing that we can now consider this part of our 
reservation.
    To have these lands in trust will give our tribal 
governments the authority to govern in its true intent.
    In summary, I would like to thank you, Mr. Chairman and 
Members of the Committee for the opportunity to address you and 
speak on behalf of the Cocopah Indian Tribe. The tribe 
graciously asks for your support in placing the additional 423 
acres of tribally owned land into trust for the betterment of 
our community and infrastructure, for enhanced economic 
opportunities for our future generations, and for the authority 
for our tribal government to govern to its true intent.
    Thank you.
    [The prepared statement of Mr. Soto follows:]

 Prepared Statement of Hon. Paul Soto, Tribal Council Member, Cocopah 
                              Indian Tribe
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today on behalf of the Cocopah Indian 
Tribe to discuss ``The Cocopah Lands Act'' (H.R. 326). My name is Paul 
Soto, and I am a member of the Cocopah Indian Tribe. I have served 
intermittently for 36 years in various capacities in the Cocopah Tribal 
Government and have served 20 years as a Tribal Council member. I am 
currently serving as the Tribal Resource Planner and Acting Tribal 
Council Secretary.
    In the early part of this decade, the Cocopah Indian Tribe 
requested fee to trust service of the Fort Yuma Bureau of Indian 
Affairs Office in facilitating the process to convert tribally-owned 
fee land to trust land. Due to limited resources the Fort Yuma Office 
was not equipped to provide such service, the tribe was directed to the 
Bureau of Indian Affairs Regional Office. However, the Regional Offices 
at that time directed the process back to the local Fort Yuma Office. 
Because this appeared to be the start of an on-going unsolvable 
dialogue, the Tribe was advised by the Fort Yuma Office to initiate a 
more direct approach. After five years of working with U.S. 
Representative Pastor and U.S. Representative Grijalva, this direct 
approach has brought me before you today.
    In 2002, Representative Pastor-D first introduced ``The Cocopah 
Lands Act'' (H.R. 5000) during the 107th Congress. The bill was 
introduced on June 21, 2002 and sent to the House Committee on Natural 
Resources where it stayed without further development. At that time the 
second Port of Entry along the U.S.-Mexico Border near San Luis, 
Arizona, was introduced and became a priority for Representative Pastor 
and the Cocopah Indian Tribe.
    Since the first introduction of this very important legislation, 
Representative Grijalva-D replaced Representative Pastor as 
representative of our district. The Tribal Council requested the 
support of Representative Grijalva in sponsoring the re-introduction of 
``The Cocopah Lands Act,'' which he fully supported and took up efforts 
on behalf of the Tribe. Representative Grijalva introduced the bill in 
2006 during the 109th Congress and again on January 24, 2007 during the 
110th Congress.
    The Tribe is requesting Congressional support to place five 
properties that are divided into seven individual parcels into trust to 
be included as part of the reservation. The five properties would 
increase the total size of the currently 6,500-acre reservation by 423 
acres with the majority of the acreage being used as agricultural land. 
Currently the Cocopah Reservation consists of three non-contiguous 
reservations, called the North, West and East Reservations. Our 
community members reside on all three reservations and much of that 
land is leased as agricultural land.
    As stated by The Cocopah Tribal Chairwoman Sherry Cordova: ``When 
we purchased the different parcels in the 80s and 90s, it was the only 
way we could secure the land to continue in our efforts to expand much 
needed infrastructure for the people. If we are able to get these lands 
into trust, it would be a great thing for our tribe--to be able to make 
decisions, plan and build, knowing that we can now consider it as a 
part of our reservation. To have these lands in trust will give our 
tribal government the authority to govern in its true intent.''
    In summary, I would like to thank you, Mr. Chairman and members of 
the Committee, for the opportunity to address you and speak on behalf 
of the Cocopah Indian Tribe. The Tribe graciously asks for your support 
in placing the additional 423 acres of tribally-owned land into trust 
for the betterment of our community and infrastructure, for enhanced 
economic opportunities for our future generations, and for the 
authority for our tribal government to govern to its true intent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Councilman, thank you very much for being 
here.
    And finally we will hear from Ms. Linda Taylor, the Dean of 
Nursing at the College of Menominee Nation in Keshena, 
Wisconsin.
    Ms. Taylor, you may proceed.

   STATEMENT OF LINDA D. TAYLOR, DEAN OF NURSING, COLLEGE OF 
                        MENOMINEE NATION

    Ms. Taylor. Mr. Chairman and distinguished Members of the 
Committee, on behalf of my institution, the College of 
Menominee Nation and the other 35 tribal colleges and 
universities (TCUs) that compose the American Indian Higher 
Education Consortium, thank you for inviting us to testify on 
S. 633, the Tribal Health Promotion and Tribal Colleges and 
Universities Advancement Act of 2009.
    My name is Linda Taylor. I am a member of the Oneida Nation 
and the Dean or Nursing at the College of Menominee Nation in 
Keshena, Wisconsin. We are grateful to have the opportunity to 
thank you in person, Mr. Chairman, for your tremendous work on 
behalf of all native people.
    This morning, I will just highlight some of the important 
programs that are included and that we would like to see 
restored in S. 633. I ask that my full written statement 
submitted to the Committee be included in the hearing record.
    Mr. Chairman, S. 633, modeled after our successful 1994 
land grant legislation, includes authorizations for, (1) 
community-based outreach programs; (2) education and workforce 
development programs; (3) an endowment to be held by the U.S. 
Treasury.
    This legislation wisely targets health promotion strategies 
to address both the immediate and long-term health and wellness 
challenges that are threatening the very survival of Native 
people. Some of the opportunities proposed in the legislation 
include annual TCU health fair outreach grants and competitive 
grants to allow tribal colleges, in partnership with tribal 
governments, to develop and implement long-term community-based 
strategies to address health promotion and disease prevention.
    The need for tribal college-specific grant programs is 
critically needed and long overdue, a fact that was illustrated 
last week by a tribal college president when he said, ``We 
applied for suicide prevention funding three times from SAMHSA. 
We thought we had a very competitive proposal, but it was never 
funded. They kept encouraging us to resubmit the proposal `next 
year', and meanwhile our people are still killing themselves.''
    S. 633 authorizes an American Indian Health Professions and 
Research Program. Tribal colleges are the ideal places to 
prepare the future American Indian health care workforce. At 
College of Menominee Nation, we have established a nursing 
career ladder program beginning with personal care workers, 
then progressing to a certified nursing assistant program, the 
licensed practical nursing program, and then the registered 
nurse program.
    The need is great. Every year more tribal governments are 
asking their local tribal college to establish some type of 
allied health professions program. College of Menominee Nation, 
for example, admitted our first students last fall, and already 
we are receiving requests from other tribal nations to expand 
our health care programs.
    As important as the program on health promotion, disease 
prevention, and health workforce development, S. 633 also 
contains provisions aimed at strengthening partnerships between 
tribal governments and tribal colleges that will develop and 
expand reservation-based economies and communities. The key to 
our success lies in our ability to create strong partnerships 
to tell our success story effectively and to stay focused on 
our collective vision of building stronger tribal nations 
through tribal higher education.
    In closing, as truly engaged institutions, tribal colleges 
are preparing an American Indian health workforce, improving 
the health and wellness of students and their families, 
combating substance abuse, including alcohol and 
methamphetamine use, vitalizing native cultures and language, 
and creating economic development opportunities in some of the 
Nation's poorest communities.
    In its original form, this legislation addressed all of 
these areas. However, for various reasons during the 110th 
Congress, some provisions were removed that are critical to the 
legislation's goal and to the future of Native America.
    I respectfully request that Senator Tester and Members of 
this Committee work with AIHEC to ensure that the bill 
exemplifies its original intent--the creation of a 
comprehensive strategy through which tribal colleges are full 
partners with Federal agencies, working together to help build, 
strengthen, and sustain thriving tribal communities.
    Thank you, Mr. Chairman, for this opportunity to share our 
story, our successes, and our needs with you today, and we 
thank Senator Tester and the cosponsors of S. 633 for their 
commitment to and trust in tribal colleges and universities.
    We look forward to working with all of you to achieve 
enactment of S. 633, the Tribal Health Promotion and Tribal 
Colleges and Universities Advancement Act of 2009.
    [The prepared statement of Ms. Taylor follows:]

  Prepared Statement of Linda D. Taylor, Dean of Nursing, College of 
                            Menominee Nation
    Mr. Chairman and distinguished members of the Committee, on behalf 
of my institution, the College of Menominee Nation in Keshena, 
Wisconsin, and the 35 other Tribal Colleges and Universities that 
compose the American Indian Higher Education Consortium, thank you for 
inviting us to be here today to testify regarding S. 633, the Tribal 
Health Promotion and Tribal Colleges and Universities Advancement Act 
of 2009.
    My name is Linda Taylor. I am Dean of Nursing at the College of 
Menominee Nation in Keshena Wisconsin, and it is an honor to speak with 
the members of this Committee about Tribal Colleges and the work we are 
doing to transform Indian Country. We are also grateful to have the 
opportunity to thank you in person, Mr. Chairman, for your tremendous 
work on behalf of all Native people. I would also like to thank Senator 
Tester for his leadership in sponsoring S. 633, the Tribal Health 
Promotion and Tribal Colleges and Universities Advancement Act of 2009. 
We are pleased that he has taken the initiative to introduce this 
legislation so early in the 111th Congress and that the Committee has 
so expeditiously scheduled a hearing.
    This afternoon, I will speak briefly on three topics: The Tribal 
College Movement; the need for enactment of S. 633; and finally, 
additional provisions that we hope can be included in S. 633 to 
accomplish the original intent of Senator Tester's legislation. I ask 
that my written statement be included in the Hearing Record.
Background: The Tribal College Movement
    Mr. Chairman, you and the members of this Committee are well 
acquainted with Tribal Colleges and Universities. Perhaps no one other 
than the Tribal College presidents and students knows better of our 
near daily struggles to survive as the most poorly funded institutions 
of higher education in the country. You also know of our tremendous 
successes, from our work to build self esteem and change the life and 
future of a student through a nurturing educational environment that is 
culturally-based and relevant to that student, to our efforts to build 
stronger and more prosperous Tribal nations through the restoration of 
our languages, applied research on issues relevant to our land and our 
people, workforce training in fields critical to our reservation 
communities, and community-centered economic development and 
entrepreneurial programs.
    American Indian tribally controlled colleges and universities are 
young, geographically isolated, poor, and almost unknown to mainstream 
America. They are also amazingly bright catalysts for revitalization 
and change--so much so that Tribal Colleges are often called ``higher 
education's best kept secret.''
    Located in some of the most rural and impoverished regions of this 
country, Tribal Colleges are planting resilient seeds of hope for the 
future; nurturing and sustaining languages, cultures, and traditions; 
and helping to build stronger tribal economies and governments. Yet, 
the oldest Tribal College is younger than many of the people in this 
room. Our oldest institution, Dine College on the Navajo Nation, just 
turned 40 last year.
    The Tribal College philosophy is simple: to succeed, American 
Indian higher education needed to be locally and culturally based, 
holistic, and supportive. The education system needed to address the 
whole person: mind, body, spirit, and family. Today, the nation's 36 
tribal colleges are located throughout Indian Country: all seven tribes 
in Montana and all five in North Dakota have colleges. Tribal Colleges 
are also located in the Southwest, the Great Lakes, and the upper 
Northwest. We are expanding in all regions, including Wyoming, Alaska 
and Oklahoma, and through distance education programs, our colleges 
reach all of ``Indian Country.''
    In only four short decades, Tribal Colleges have achieved 
tremendous results. For example, in Montana, before Salish Kootenai 
College was established in 1976, less than 30 members of the Salish and 
Kootenai tribes had earned a college degree. Between 1976 and 1994, SKC 
alone graduated more than 400 tribal members. Today, Salish Kootenai 
College offers several bachelor's degree programs, including Bachelor's 
degree programs in Computer Engineering, Elementary Education, and 
Nursing, among others.
    Tribal Colleges are first and foremost academic institutions, but 
because of the number of challenges facing Indian Country--high 
unemployment, poorly developed economies, poor health status, and lack 
of stable community infrastructures, Tribal Colleges are called upon to 
do much more than provide higher education services. Tribal Colleges 
often run entrepreneurial and business development centers. Many TCUs 
are the primary GED and Adult Basic Education provider on their 
reservations, and all TCUs provide a variety of evening, weekend 
training and para-professional programs for tribal employees, BIA and 
IHS staff, K-12 schools, tribal courts and justice system staff, and 
many others. TCUs run day care centers, health promotion and nutrition 
programs, community gardens, and often, the community library and 
tribal museum or archives. Tribal Colleges have strong partnerships and 
linkages with the local K-12 education system, offering Saturday and 
summer ``bridge'' programs for high school students, running summer 
camps for youth, and providing after-hours gymnasiums and computer labs 
for young people.
    In terms of agriculture and land-based programs, Tribal Colleges 
are working diligently to protect our environments and sustain our 
lands and waters. My college, the College of Menominee Nation, has 
developed the ``Sustainable Development Institute,'' founded on the 
principles of sustainability and Menominee values. Prompted by 
Menominee's long tradition of sustainable forestry practices, tribal 
leaders created the Sustainable Development Institute to encourage and 
build upon Menominee approaches to sustainable development.
    Perhaps most important, like the College of Menominee Nation, all 
Tribal Colleges are actively and aggressively working to preserve and 
sustain their own tribal languages and cultures. All TCUs offer Native 
language courses, and in fact, passing a language course is a condition 
of graduation from a TCU. In some cases, the tribal language would have 
been completely lost if not for the Tribal College. Turtle Mountain 
Community College in Belcourt, North Dakota, was established primarily 
for this purpose, and over the years, its success in writing and 
revitalizing the Turtle Mountain Chippewa language has been tremendous. 
Fort Belknap College in Montana runs a K-6 language immersion school, 
right on campus. At the White Clay Immersion School, children learn the 
White Clay language and culture in addition to subjects they would 
normally study at any other school.
    Many TCUs offer unique associate and bachelor degree programs, as 
well as in-service training, in elementary education. At the TCUs, 
teacher education programs follow cultural protocols and stress the use 
of Native language in everyday instruction. Well over 90 percent of 
teachers who graduate from a TCU teacher education program receive jobs 
on the reservation shortly after graduation, providing positive role 
models to Indian children.
    Finally, Tribal Colleges are accountable institutions, always 
striving to be more accountable to our funders, our students, and our 
communities. Several years ago, AIHEC launched an ambitious and 
landmark effort called ``AIHEC AIMS,'' which is a comprehensive data 
collection system for TCUs, created by Tribal College faculty and 
presidents, community members, funders, students, and accrediting 
agencies, aimed at improving our ability to measure and report our 
successes and challenges to our key stakeholders. Today, each Tribal 
College reports annually on a comprehensive set of 116 qualitative and 
quantitative indicators that allows us, for the first time, to share 
the true story of our success with funders, and most important, with 
our communities.
    Tribal Colleges have made tremendous strides since we first began 
four decades ago, but many challenges remain. Tribal Colleges are poor 
institutions. In fact, Tribal Colleges are the most poorly funded 
institutions of higher education in the country:

        (1) Tribal Colleges are not state institutions, and 
        consequently, we receive little or no state funding. In fact, 
        very few states provide support for the non-Indian students 
        attending TCUs, which account for about 20 percent of all 
        tribal college students. However, if these students attended a 
        state institution, the state would be required to provide the 
        institution with operational support for them. This is 
        something we are trying to rectify through education and public 
        policy change at the state and local level.

        (2) The tribal governments that have chartered Tribal Colleges 
        are not the small handful of wealthy gaming tribes located near 
        major urban areas. Rather, they are some of the poorest 
        governments in the nation. In fact, three of the ten poorest 
        counties in America are home to Tribal Colleges.

        (3) The Federal Government, despite its trust responsibility 
        and treaty obligations, has never fully-funded our primary 
        institutional operations source, the Tribally Controlled 
        Colleges and Universities Act. Today, the Act is appropriated 
        at about $5,490 per full time Indian Student, which is less 
        than half the level that most states fund their institutions.

    To continue to thrive and expand as community-based educational 
institutions, Tribal Colleges must stabilize, sustain, and increase our 
basic operational funding. Through tools such as AIHEC AIMS, we hope to 
better educate the public, lawmakers, and federal officials about the 
cost-effective success of our institutions. Through opportunities such 
as this, we hope to share with the Congress and others how we are 
helping to meet the challenges facing our tribal nations.
S. 633, The Tribal Health Promotion and TCU Advancement Act
    Mr. Chairman, S. 633, the Tribal Health Promotion and TCU 
Advancement Act, is a critical component of our strategic efforts to 
help address the needs of our tribal communities and build stronger and 
more prosperous tribal nations. By maximizing TCU participation in a 
set of key programs within the U.S. Departments of Health and Human 
Services and Labor, this legislation will strengthen and sustain TCU 
capacity to help Native communities achieve healthier, longer, and more 
prosperous lives; more stable and secure families; and greater economic 
competitiveness.
    This legislation is modeled after our successful 1994 land grant 
legislation, which established a partnership between Tribal Colleges 
and the U.S. Department of Agriculture that benefits all of Indian 
Country. Like the Educational Equity in Land Grant Status Act, this 
legislation includes authorizations for: (1) community-based outreach 
programs; (2) education and workforce development programs; and (3) an 
endowment, to be held by the U.S. Treasury, with the interest being 
used by TCUs for activities consistent with the goals of the 
legislation.
    Key provisions of the legislation include:
Title I: Health Promotion and Health Workforce Training (Dept. of 
        Health and Human Services)
1. Community-based Health Promotion and Disease Prevention Partnerships 
        with Tribes
    This section of the Act focuses on strategies to address the 
immediate and long-term health and wellness challenges that are 
threatening the very survival of Native people.
Health Fair-Outreach Formula Grants
    The bill proposes very modest ($15,000 per TCU annually) formula 
grants to help us conduct annual, community-based, and culturally 
relevant health and wellness fairs at TCUs, building on existing but 
unfunded outreach programs at our institutions. This funding will help 
us bring more elders in for health screening and referrals, conduct 
diabetes screening for our Indian youth, who are contracting this 
deadly disease at rates far higher than any other group in the United 
States, and it will help us raise awareness about the warning signs of 
diseases that are literally killing our people--from children to 
Elders--every single day: alcohol and substance abuse, domestic 
violence, and depression and other behavior health issues.
Competitive Capacity Building Grant Program
    The bill proposes a competitive grant program to help tribes and 
Tribal Colleges and Universities build the capacity to develop and 
implement long-term and community-based strategies in health promotion 
and disease prevention. Through five-year collaborations with tribal 
governments, Tribal Colleges could address targeted health promotion 
and disease prevention areas, including:

  <bullet> Education Programs in Diabetes Prevention and Care, Obesity, 
        and Nutrition;
  <bullet> Injury Prevention;
  <bullet> HIV-AIDS Prevention;
  <bullet> Substance Abuse, including methamphetamine abuse; and
  <bullet> Depression and other behavior health issues.

    This program is critically needed and long overdue. Each day that 
ends before this legislation is enacted represents the loss of more of 
our precious young people. The American Recovery and Reinvestment Act 
and the Fiscal Year 2010 budget recommendations from this Committee 
prioritize funding for the Indian Health Service and include increased 
funding to address substance abuse and other challenges facing our 
communities. We greatly appreciate those efforts, but it is not enough. 
It will never be enough until Tribal Colleges and Universities--the 
very institutions that serve as nurturing and safe families for our 
youth--are included as strategic partners in these efforts. Today, 
unfortunately, we are not partners.
    This fact was illustrated last week by one of the Tribal College 
presidents. He said: ``We applied for funding three times from SAMHSA. 
We thought we had a very competitive proposal, but we were never 
funded. They kept encouraging us to re-submit the proposal next year; 
and meanwhile, our people are still killing themselves.''
    Another Tribal College president recently cited an alarming--but 
all too common--statistic from his institution: a recent survey 
revealed that 75 percent of all students had suicidal thoughts in the 
past year. ``With statistics like that,'' he said, ``we can't just have 
one prevention counselor on campus. Everyone on campus, whether he is 
an instructor, a counselor, a janitor, or a student, needs to know how 
to intervene. It's an epidemic.''
    Funding sources to address these issues are practically non-
existent for our institutions, and the Indian Health Service, even if 
its leaders want to help us, focuses more on tertiary, rather than 
preventive, care. Tribal Colleges can help pick up the slack: we know 
how to teach, we know how to conduct community based activities, and we 
know how to reach young people, older people, and families. We have 
them--young, old, families, individuals, friends, and relatives--on our 
campuses every day. We simply lack the funding needed to establish and 
sustain programs that will address individual needs and ultimately, 
turn our communities around.
    Through the competitive grant program established under this 
legislation, we will have access to some of the resources we need.
2. American Indian Health Professions and Research Programs: Health 
        Resources and Services Administration (HRSA) and the National 
        Institutes of Health (NIH)
Health Professions Training Programs and Endowment: HRSA
    In addition to providing community-based health promotion and 
disease prevention outreach, Tribal Colleges and Universities are the 
ideal places to prepare the future American Indian health care 
workforce. I can make that statement confidently because I know first-
hand that we are doing it now at the few Tribal Colleges that have been 
able to establish nursing, social work, and allied health programs. At 
the College of Menominee Nation, we have established a nursing career 
ladder program, beginning with Personal Care Workshops, and then 
progressing to the Certified Nurse Assistant (CNA) program, the 
Licensed Practical Nursing (LPN) program, and then to the Registered 
Nursing (RN) program.
    Oglala Lakota College on the Pine Ridge Reservation in South Dakota 
provides another example: Twenty years ago, only 10 percent of the 
workforce at the local Indian Health Service hospital was American 
Indian. Today, 80 percent or more of the nursing staff at the local IHS 
hospitals and clinics were educated and trained at Oglala Lakota 
College. Likewise, Southwestern Indian Polytechnic Institute in 
Albuquerque trains virtually all of the optical technicians trained in 
the State of New Mexico. Salish Kootenai College on the Flathead Indian 
Reservation is the regional testing site for radiology technicians, not 
just for the American Indians entering this profession, but for all 
radiology technicians in that region of Montana.
    I believe that Tribal Colleges are making a bigger impact in 
training the American Indian health care work force than any other 
institutions of higher education, but a tremendous need exists for more 
registered nurses, Community Health Representatives, and other allied 
health professionals. Every year, more tribal governments are 
approaching their Tribal College, asking the college to establish some 
type of allied health professions program. College of Menominee Nation, 
for example, established our LPN/RN programs just two years ago, and 
already, we are receiving requests from other tribes in Wisconsin to 
expand the program. Fort Belknap College in Montana was asked by its 
tribal government to establish a Certified Nursing Assistant program a 
few years ago, and already it has trained 50 CNAs, 90 percent of whom 
have become certified and are working today.
    To help Tribal Colleges develop and expand programs such as these, 
S. 633 authorizes a competitive grant program specifically for TCUs and 
establishes a Federal Treasury Endowment Account to help TCUs sustain 
and equip such degree programs. An endowment program is essential to 
these types of programs due to the high cost of nursing and other 
health professions programs. Programs like these, targeted specifically 
to Tribal Colleges are necessary because few programs currently exist 
that are accessible to TCUs. In fact, many of the programs administered 
by the Department of Health and Human Services effectively prohibit TCU 
participation due to strict requirements regarding the qualifications 
of the Principal Investigator (such as mandating that he or she hold a 
Ph.D.) or other prohibitive practices. Similar to programs that the 
Congress has funded at the National Science Foundation and Department 
of Education, a program specifically established for Tribal Colleges 
and Universities would help ensure that the Indian Health Service and 
tribal health programs have trained health professions to help them 
meet the many health-related challenges facing our people.
Public Health Research and Capacity Building Program: NIH
    To help ensure that tribes, Tribal Colleges, and our health 
educators can effectively meet the unique needs of Indian people living 
in rural or remote areas with depressed economies, inferior 
infrastructures, and limited access to services, our Tribal Colleges 
must have the resources needed to conduct applied research in our 
communities, particularly research involving epidemiology. Likewise, to 
better address the evolving needs and challenges facing our youth, 
research and information sharing on effective outreach and prevention 
strategies is essential. However, faculties at Tribal Colleges 
currently have limited access to federal research funding, for reasons 
similar to those outlined above. Specifically, because many TCU faculty 
members do not have Ph.D.s and must spend more time in the classroom 
than faculty at mainstream universities and research institutions, 
Tribal College research proposals are not scored competitively by 
federal agencies and their review panels. A research program 
specifically targeted to faculty at Tribal Colleges and Universities, 
particularly one that allows for research experiences for TCU students, 
ultimately could significantly improve the health status of American 
Indians and others in rural America.
    S. 633 would establish such a program for TCUs, similar to the 
USDA's 1994 land grant research program, which funds applied research 
projects at Tribal Colleges. Over the past several years, TCUs have 
used this program to conduct vitally needed research on issues 
particularly relevant to their communities and tribes. Salish Kootenai 
College in Montana and Lac Courte Oreilles Ojibwa Community College in 
Wisconsin are conducting vitally needed research--research that no one 
else is doing--on invasive plants that threaten tribal lakes and lands. 
Fort Belknap College in Montana is assessing the impacts of mining 
activities on soil microbes at a cyanide-leach mine site, and it, like 
many other TCUs, is involved in reservation-based water quality testing 
and research.
    All of these research activities involve students and are helping 
to build a future science workforce throughout Indian Country.
Title II: Advancing Tribes Through TCUS (Department of Labor)
Economic Development to Address Generational Unemployment and Economic 
        Development Capacity Building
    In addition to its focus on health promotion/disease prevention and 
health workforce development, S. 633 also contains important provisions 
aimed at strengthening partnerships between tribal governments and 
Tribal Colleges that will help develop and expand reservation-based 
economies and communities. Specifically, the bill would establish a 
competitive grant program to fund TCU-tribal partnerships that 
encourage micro-enterprise development, entrepreneurship, business 
degree programs, municipality planning, and leadership development.
    With very little and extremely competitive resources, Tribal 
Colleges are working to strengthen tribal governments and build 
thriving economies and communities. Sitting Bull College in Fort Yates, 
North Dakota, offers small business incubators to the community, with 
training in business plan development and marketing. Chief Dull Knife 
College in Lame Deer, Montana, recently helped create a community 
development corporation and provides workshops in e-commerce, financial 
literacy, and youth entrepreneurship. These are just two examples of 
efforts currently underway that could be replicated at other Tribal 
Colleges if resources were available.
    In addition to implementing strategies to encourage 
entrepreneurship, Tribal Colleges also serve as key infrastructure 
providers on their reservations. For example, Salish Kootenai College 
has served as a local ISP (Internet Service Provider) in its area, 
bringing broadband Internet access into peoples' homes. Sitting Bull 
College runs a nationally recognized reservation-wide bus service, 
taking thousands of residents to doctors' appointments, classes, and 
community functions. Some TCUs run building trades programs that 
partner with the tribe to build vitally needed housing for their 
communities, and a number of TCUs have student dorms, often including 
married-student and family housing.
    Tribal Colleges are economic drivers on their reservations and in 
their communities. For example: A study conducted by United Tribes 
Technical College in North Dakota revealed that UTTC contributes $46.7 
million in direct and secondary benefits to State's economy in one 
year. Oglala Lakota College employs 300 people, runs the tribal day 
care and Head Start programs, and as I mentioned above, trains 80 
percent of the local Nursing force. Tribal Colleges throughout the 
nation are educating and training K-12 teachers, tribal leaders, and 
Native scientists.
    The keys to our success lie in our ability to create strong 
partnerships, to tell our story of success effectively, and to stay 
focused on our collective vision of building stronger Tribal Nations 
through Tribal Higher Education.
    We look forward to working with Senator Tester and the co-sponsors 
of S.633 to achieve this vision, and thank them for their commitment to 
and trust in Tribal Colleges and Universities.
Expansion of S. 633, to Achieve the Original Goals of Comprehensive 
        Legislation
    In closing, Mr. Chairman, I respectfully request that Senator 
Tester and the members of this Committee work with us to better achieve 
the original intent of the legislation: the creation of a comprehensive 
strategy through which Tribal Colleges are full partners with the U.S. 
Department of Health and Human Services, working together to help 
build, strengthen, and sustain thriving tribal communities.
    As truly engaged institutions, Tribal Colleges are the catalysts 
for change in Indian Country. Although our institutions are the most 
poorly funded institutions of higher education in the U.S., I have 
tried to demonstrate today how TCUs are addressing many of the economic 
and social challenges facing Native communities. We are:

  <bullet> Preparing an American Indian health workforce;
  <bullet> Improving the health and wellness of students and their 
        families;
  <bullet> Combating substance abuse, including alcohol and 
        methamphetamine use;
  <bullet> Vitalizing Native cultures and languages; and
  <bullet> Creating economic development opportunities in the Nation's 
        poorest communities.

    In its original form, this legislation addressed all of these 
areas, strengthening and sustaining TCU capacity to help our 
underserved Native communities achieve healthier, longer, and more 
prosperous lives; more stable and secure families; and greater economic 
competitiveness through access to vitally needed new and existing 
programs, resources, and partnerships within the U.S. Department of 
Health and Human Services.
    However, for various reasons during the 110th Congress, the 
legislation was changed before being reported by the Committee to the 
full Senate and some provisions were deleted that are critical to the 
legislation's goal and to the future of Native America.
Native Language Research and Programs
    As originally introduced by Senator Tester in the 110th Congress, 
this legislation included a modest provision authorizing $12 million in 
funding for Native language vitalization and training at Tribal 
Colleges. However, this provision was removed, and AIHEC began pursuing 
and alternative strategy in this area.
    Due to the extreme lack of funding available in this area and the 
urgent need for action, we respectfully request that the Committee 
thoughtfully revisit this issue. As you know, the ``Esther Martinez 
Native American Languages Preservation Act'' currently provides only 
$3.5 million per year, to be awarded competitively among potentially 
hundreds of American Indian and Alaska Native language projects. Quite 
simply, we must set our goals higher, both in terms of funding and 
activities: we need to significantly increase resources, and we must 
move beyond ``preservation'' to the vitalization of our Native 
languages. These are the goals of Tribal Colleges and Universities.
    Mr. Chairman, nothing is more central to the core function of 
Tribal Colleges and Universities than the restoration and vitalization 
of tribal languages and cultures. In fact, it is the mission of every 
Tribal College in this country because we realize that without our 
language, our very identity will be lost.
    Language restoration and vitalization is our mission and our life's 
work. It is not, however, the mission of state public schools, which 
educate 90 percent of all American Indian children; nor is it in the 
mission of North Dakota State University, the University of Montana, or 
any other state university. More so than any other group of 
institutions, Tribal Colleges are actively and aggressively working to 
preserve, sustain, and vitalize our own tribal languages and cultures, 
as I mentioned earlier. In some cases, the tribal language would have 
been completely lost if not for the Tribal College. Turtle Mountain 
Community College in Belcourt, North Dakota, was established primarily 
for this purpose, and over the years, its success in writing and 
revitalizing the Turtle Mountain Chippewa language has been tremendous.
    All TCUs offer Native language courses, and passing a language 
course is a condition of graduation from a TCU; and Tribal Colleges are 
responsible for the vast majority of the 50 or so Native language 
immersion programs in the U.S. Fort Belknap College in Montana runs a 
K-6 language immersion school, right on campus. At the White Clay 
Immersion School, children learn the White Clay language and culture in 
addition to subjects they would normally study in public school.
    Mr. Chairman, of the 155 Indigenous languages still being spoken in 
the United States, 135 or more are spoken only by elders. We do not 
believe that a modest $12 million program will threaten any other 
program--the need is so great, and the current resources are so 
pitifully small. We simply must work together to do more. We urge you 
to include authorization for a TCU Native language program, similar to 
the provisions of Senator Tester's original legislation. Such a program 
could be located within the Department of Health and Human Services, as 
originally proposed, or perhaps within the Department of Education or 
the Interior.
TCU Health and Wellness Centers
    Likewise, we urge the Committee to consider including Senator 
Tester's original provisions regarding health and wellness centers at 
Tribal Colleges. These provisions were deleted because some individuals 
stated that authorization for funding of health and wellness centers at 
Tribal Colleges would: (1) potentially take funding away from vitally 
needed funding for Indian Health Service hospitals and clinics and 
tribal health facilities; and (2) that health and wellness centers at 
TCUs would compete with tribal health care delivery services.
    Mr. Chairman, we believe that over the past few months, the 
situation regarding IHS and tribal health facilities construction has 
changed so dramatically as to remove any fear anyone could have over a 
modest authorization for a TCU health and wellness facilities program. 
Specifically, both the American Recovery and Reinvestment Act and this 
Committee's Fiscal Year 2010 priorities should put that fear to rest. 
Further, we believe that attempts to prohibit Tribal Colleges from 
establishing health and wellness centers, particularly when the 
establishment of such facilities is at the request of and in 
partnership with their respective tribal governments, restricts the 
exercise of tribal sovereignty and should not be tolerated. Already, 
several Tribal Colleges, at the request of their tribal governments and 
governing boards, have established health and wellness centers or 
student health clinics. Other requests are currently pending. For 
example, the Salish and Kootenai tribes have asked Salish Kootenai 
College to establish a student health clinic.
Community-based Social Science Research
    We urge the Committee to ensure that the bill exemplifies Senator 
Tester's original intent regarding joint Tribal College-Tribal 
Government Economic and Community Development Research, including 
provisions authorizing funding for workforce inventories and industrial 
analysis, community development through coordinated planning, and 
multi-stakeholder partnership models. As outlined above, Tribal 
Colleges are economic drivers on our reservations and we should be 
working closely with our tribal governments to strengthen our tribal 
economies and communities. Dedicated funding for social science 
research at Tribal Colleges, in consultation with tribal governments is 
essential for good and data driven decision making. We ask that social 
science research provisions be included in the legislation.
    Thank you, Mr. Chairman, for this opportunity to share our story, 
our successes, and our needs with you today. We look forward to working 
with you to achieve enactment of S. 633, the Tribal Health Promotion 
and Tribal Colleges and Universities Advancement Act of 2009.

    The Chairman. Ms. Taylor, thank you very much. We 
appreciate your testimony.
    A couple of questions.
    Mr. Lupe, Mr. Chairman, the bill that is before us, will 
that permanently settle the tribe's water rights claims in the 
Salt River watershed? In other words, is this a permanent 
settlement that is all encompassing?
    Mr. Lupe. Yes, this is a permanent settlement. Yes.
    The Chairman. Okay. Is there opposition that you know of to 
this quantification agreement?
    Mr. Lupe. None that I am aware of. All parties are agreed 
to it.
    The Chairman. Will the project to build the Miner Flat Dam 
that you describe in your testimony, will that be in compliance 
with Federal environmental laws, and has the environmental 
analysis been done on that?
    Mr. Lupe. Oh, definitely. We always comply with all the 
laws, the various environmentally. You name it.
    The Chairman. Ms. Reyes, I neglected to mention I believe 
Senator Murray and Senator Cantwell are cosponsors. I think the 
legislation was introduced by Senator Murray in the Senate. The 
Supreme Court recently issued its decision in the Carcieri 
case, decided the Secretary of the Interior did not have the 
authority to place land into trust for tribes not under Federal 
jurisdiction at the time the Indian Reorganization Act was 
passed in 1934. We are going to do a hearing on that. I think 
this has a pretty substantial impact on a lot of tribes.
    Have you or the attorneys for your tribe taken a look at 
that? Do you anticipate that has an impact for you?
    Ms. Reyes. Well, of course, anything that has to do with 
transferring land into trust is going to impact us, especially 
when our whole reservation is located in a flood zone. It is 
actually holding up any progress of working with the county 
that, you know, we already have plans working with the county 
for the fire district, to reopen Fire District 7. And also, we 
neighbor the park, the national park, and we are working on the 
local level to--it was actually written into the bill--to work 
together to build a visitor cultural center with West Trails, 
that we have already had meetings about and are really excited 
about. But this is one of the things that is stopping anything 
from going forward.
    The Chairman. Has the tribe made the efforts to obtain the 
support of the BIA or the National Park Service, HUD? Have you 
had any outreach to them?
    Ms. Reyes. Oh, they are supporting us with this whole bill.
    The Chairman. Good. That is very helpful. You make a strong 
case for the bill and I think that certainly we will work with 
our colleagues on it.
    Mr. Soto, the efforts that you describe, you have had some 
acquisitions in the past and the seven parcels that you are 
talking about here, have you abandoned your effort to acquire 
them through the existing process in the Department of the 
Interior? Is that the reason that there is Federal legislation 
required?
    Mr. Soto. No, we haven't abandoned that process. It was 
just on their advice that we proceed in a different manner, and 
that is what we are doing.
    The Chairman. And whose advice was that?
    Mr. Soto. The BIA.
    The Chairman. I see. Okay. All right.
    Ms. Taylor, just quickly, the PATH Act would require 
partnerships with various levels of government and various 
agencies. And yet in your testimony, you suggest cooperation 
hasn't always been what you would expect. What would lead us to 
believe that if we passed this legislation, which I support and 
am a cosponsor of, that we will have a better experience?
    Ms. Taylor. Well, the end product of this bill is to 
decrease health disparities in Native communities. And part of 
doing that is to enable tribal colleges to provide health care 
workforce for native peoples within their own lands and their 
own native culture.
    Health care is highly regulated through out the United 
States and those regulations are all necessary as we look to 
build health care promotions. Those regulatory agencies will 
need to become partners with us as we develop those kind of 
networks. If that answers your question?
    The Chairman. Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Chairman Lupe, if I could, I am wondering whether the 
advancement of this Act will help economic development as well?
    Mr. Lupe. Oh, yes, definitely.
    Senator Barrasso. Will you tell us a little about that?
    Mr. Lupe. Economic development is in dire need on our 
reservation, and we have included a separate agreement between 
the parties which we all agree on as a need, and along with the 
reservoir, there will be built a Miner Flat Dam. Yes. We have 
utter inclusion in the area of Sunrise Ski and several lakes 
improvement, and the sawmill, and just the reforestation and so 
forth, so environmentally. And also the economic development 
stretches all the way across our reservation. There is a dire 
need for environmental, excuse me, economic development, yes.
    Senator Barrasso. Ms. Reyes, Vice Chairman Reyes, the same 
question to you, about economic development opportunities if 
this goes through
    Ms. Reyes. Yes, as I mentioned, we are working with 
Jefferson County currently to reopen Fire District 7. We have 
no fire district within our area because we are a rural 
community, and we need to actually relocate all of our homes 
out of the flood zone.
    During our last flood, we had FEMA come down and meet with 
us, and they were willing to relocate us, but the only thing 
that stopped that from happening was we had nowhere to relocate 
anything because everything is the flood zone right now.
    Senator Barrasso. Okay.
    Chairman Soto, same question about economic development 
opportunities.
    Mr. Soto. Right. Four of the parcels are currently being 
utilized as farmland. Three of the parcels are being considered 
as recreational-themed development in the very near future.
    Senator Barrasso. What about law enforcement, if I could 
ask about that? Will that be provided by the tribe or by the 
Bureau of Indian Affairs? Or how are you going to handle the 
issue of law enforcement?
    Mr. Soto. The local jurisdiction is annexing all around and 
about us. They have indicated to us that they would be willing 
to provide law enforcement if necessary, but we do have our own 
police department and they are also charged with that. So we 
have dual jurisdictions on that property currently.
    Senator Barrasso. Thank you.
    And Ms. Taylor, could you talk a little bit about 
recruitment and retention of health care professionals? I know 
in Wyoming, we have a real challenge of recruiting and 
retaining, and I think that educating at home is a helpful way 
to do that, for it is more likely that someone is willing to 
stay there than move elsewhere.
    Are there specific pieces of the legislation that 
additionally help with recruiting or retaining, or any kind of 
bonuses or any kind of pay for, you know, a year for your 
service if you get the education? We have been experimenting 
with certain things in Wyoming to try to get local folks 
educated and then keep them there, so they don't just get the 
education that we invest in and then they move elsewhere.
    Could you visit a little bit about that?
    Ms. Taylor. Okay, it seems that your question is a little 
multi-factoral.
    Senator Barrasso. Yes.
    Ms. Taylor. One of the things that existed before we 
initiated our program at the tribal college, there was an 
agreement between the college and the university to make sure 
that we cold train Native people at the university. And that 
program was not very successful because native people tend to 
want to stay near home and near family and near community. By 
putting health care and health careers in the tribal colleges, 
that will facilitate that, instead of sending people away to 
work at the universities.
    Nurses notoriously like to work at the place where they 
were trained. And so if you send a student away to work at a 
university, they will tend to want to stay in that particular 
area.
    And so by having the programs themselves on the reservation 
for the Native people that facilitates them staying on the 
reservation and taking care of their own people.
    Senator Barrasso. Are there any additional incentives in 
terms of either financial incentives or scholarships or the 
forgiveness of loans for staying so many years and serving in 
that community? Because it seems the ones that even start 
working there, and then become more and more involved, that 
then it is more likely they would stay as well.
    Ms. Taylor. I do not have the answer to that question. In 
my read-through, I did not see any specific monies for that, 
but I can get that answer back to you.
    Senator Barrasso. I would appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso, thank you very much.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman, for holding the 
hearing once again.
    Mr. Lupe, Senator Barrasso asked you about economic 
development. What are your current unemployment levels on the 
reservation right now?
    Mr. Lupe. What now?
    Senator Tester. Your unemployment levels, what are they at?
    Mr. Lupe. I would say it is right in the area of 80 
percent.
    Senator Tester. Eighty percent?
    Mr. Lupe. Yes.
    Senator Tester. And what this water compact bill is about 
$293 million associated with it also. Correct? And is that for 
building and maintaining, basically, the drinking water system? 
Is that mainly what that money is for, or is it for other uses 
there too?
    Mr. Lupe. Yes. We have also included in there the sawmill 
retooling. We have a mainstay economy. We have a high stand of 
timber.
    Senator Tester. Yes.
    Mr. Lupe. And we had a terrible burn not too long ago which 
devastated our economy. So we are redefining our machines so we 
can go into the smaller diameter trees. That will take quite a 
bit of money in reinvestment so we can put people back to work 
again.
    And there are other areas, like snow-making for the Sunrise 
Ski Resort and also the recreation lakes development.
    Senator Tester. Good. And that is all part of the $293 
million?
    Mr. Lupe. Yes.
    Senator Tester. Okay, good.
    My geography isn't the best. Where does the Salt River go? 
It leaves your place and it goes to central Arizona? And then 
is the water used up at that point in time? Or does it go into 
New Mexico or another State? Give me an idea.
    Mr. Lupe. The headwaters of our reservation all stems from 
springs and streams from our reservation which forms the Salt 
River, which flows into Phoenix.
    Senator Tester. Yes. And is that the end of it? They use it 
all there?
    Mr. Lupe. It starts from our reservation. We don't go into 
another State at all.
    Senator Tester. Okay. And I just want to make sure, as 
Senator Kyl said, the urban folks are okay with all this? They 
have been part of the negotiations and they are okay, too. 
Right?
    Mr. Lupe. Oh, yes. All parties in the Phoenix Valley have 
signed. They have agreed to our bill.
    Senator Tester. Good. Okay.
    Jonette, you talked about the park, 37-acre national park. 
Is that the whole park, or is that a portion of the park?
    Ms. Reyes. It is a small portion of the park.
    Senator Tester. It is a small portion of the park.
    Ms. Reyes. Yes, as I mentioned before, they weren't even 
certain how they acquired that land.
    Senator Tester. Okay. Is the Park Service, what has been 
their comment about this bill?
    Ms. Reyes. They are actually pretty supportive.
    Senator Tester. Good.
    Ms. Reyes. You know, we meet with them regularly. They know 
what our need is to relocate. They are just very supportive. We 
have had support with pretty much everybody that we met with in 
regards to this bill.
    Senator Tester. That is good to know. Okay, thank you.
    Mr. Soto, there are seven parcels of land that you have 
acquired that you want to put into trust.
    Mr. Soto. Yes.
    Senator Tester. And it also talks about 360 acres. Those 
seven parcels and 360 acres are the same? Or is there more than 
that in the seven parcels?
    Mr. Soto. I think there is 423 in total.
    Senator Tester. So why isn't it all being transferred at 
this point in time?
    Mr. Soto. I believe they are.
    Senator Tester. Oh, they are? Okay. That is good to know. 
Thank you.
    And is there anybody that is non-supportive of this 
happening at the local level?
    Mr. Soto. No, none to this point.
    Senator Tester. Okay, good. Thank you.
    Ms. Taylor, I just kind of want to get an idea. You are in 
Wisconsin. You run a nursing program there at a tribal college 
in Indian Country. What are the needs as far as workforce needs 
where you are at? And what percentage of them are you able to 
supply right now?
    Ms. Taylor. First of all, I would like to thank you, 
Senator Tester, for sponsoring this bill. It is very important 
to the tribal colleges.
    One of the sad things about reported data on the American 
nursing workforce is that only 0.5 percent of the nursing 
workforce, and yet there is a shortage, is declared American 
Indian-Native Alaskan.
    One of the things that I realized as I was looking at the 
potential of starting this program, that Native people like to 
stay near home and community and comfort areas, and take care 
of their own, and do a lot of those kind of things.
    So the workforce I am trying to develop is a workforce to 
care for our own, to hopefully stay on the reservation, take 
care of the needs of our elderly. Many of the students that are 
in my certified nursing assistant course are not looking to get 
jobs. They are actually looking to take care of their elders at 
home, which is significant in understanding the mind set.
    So yes, we are definitely developing hopefully a Native 
American-focused workforce to address the needs of the area. 
But we have shortages of nurses that cycle periodically, and so 
we are hoping to be able to help meet some of the needs in the 
area for Native nurses and culturally appropriate care.
    Senator Tester. Is the demand for your program, and it is 
going to vary throughout the U.S. depending on where you are at 
and which reservation you are on, but is the demand for your 
program, I am talking about the people who want to go to school 
there. Can you supply them with the educational opportunity? Or 
do you need to ramp up your program in order to meet the needs 
of the folks who want to come?
    Ms. Taylor. Well, the program is sound, I can tell you 
that.
    Senator Tester. Yes.
    Ms. Taylor. But what we are trying to do is we are trying 
to make an educational career ladder so that we can get people 
slowly into the rigors of a nursing program. A lot of people, 
everybody, you know, all over the Nation, don't realize how 
rigorous a nursing program is.
    Senator Tester. Right.
    Ms. Taylor. And so sometimes they think because we are a 
tribal college, we are less rigorous, and that is not the case. 
So we are building our student base, remediating them before 
they come into the program.
    Senator Tester. Good. And I think you made this point, but 
I am going to repeat it. The intent of this bill is to train 
Native Americans in Indian Country so that they will stay there 
and give the treatment, because I know, at least in Montana, 
and I think it is true throughout the Country, they want to 
stay at home. They don't want to leave and get a job off-
reservation.
    So I appreciate your testimony.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much.
    Senator Tester, I want to compliment you on this piece of 
legislation, S. 633, the Tribal Health Promotion and Tribal 
Colleges and Universities Act.
    And Linda, I want to focus on one thing on the Act to see 
what it is that could really make a difference in Indian 
Country. I mean, you are a nurse. You are very aware of the 
epidemic we have of diabetes in Indian Country. We have it 
severely in New Mexico on many of our reservations. And we all 
know that it is prevention and really getting out in front of 
these kinds of issues that could make a real difference.
    I at one point had an experience on the Navajo Reservation 
where several Navajo women, elderly women that knew the 
traditional Navajo diet, which is much different than, as they 
would describe, they called the white man's diet the biliganna 
diet. They said stay away from the biliganna diet and focus on 
the traditional native diet, which was high in complex 
carbohydrates and protein and things like that.
    And what they did is they had a fair in their community, 
and they cooked the traditional diet, because many people 
didn't know what the diet was, and then brought in the young 
people and had them sample it and see how good it was, with the 
idea of also having health people there that could talk about 
the health benefits of it.
    And I am wondering in this legislation, do you think health 
fairs like that, those kinds of events where tribal communities 
take control of their health, that you know, there is a 
personal responsibility element. They step up to the plate like 
you are probably doing in your community.
    Is that allowed under this bill? Is this something that 
would be encouraged?
    Ms. Taylor. Very much encouraged under this bill. Health 
and Wellness Fairs are an integral piece of this particular 
bill. So yes, and I agree with you that having wellness fairs 
are very, very important, but I also want to reiterate, just 
like the rest of us when we go to the physician and he tells us 
we need to adjust our diet, we do so for a month, and then we 
are kind of like looking at the Twinkies and we are going, oh, 
let's go back to that.
    So it needs to be redone on a regular basis. So we need to 
hit it often with looking at changing diet. That kind of 
behavioral modification isn't done with one single wellness 
fair. It needs to be done on a regular basis to get people 
talking about it, sharing recipes, and looking at different 
ways of preventing health disparities.
    Senator Udall. My sense is what this legislation is trying 
to do is grow those capabilities and capacities at the tribal 
level, as you are doing at your tribe where you are a nurse, 
and build that to move forward with these kinds of preventive 
agendas.
    Ms. Taylor. Correct. Prevention, if we can get them young, 
if we can get them to think about their health and the choices 
that they make on a regular basis, it would definitely be 
beneficial to the overall health and wellness of the people.
    Senator Udall. And isn't it much better to start earlier 
and get those habits early than it is to have to try to break 
bad habits later? That's the idea of focusing on young people 
and focusing on a prevention agenda.
    Ms. Taylor. Right. And the more you can get the elders and 
the children to interact, the better off the generations will 
be.
    Senator Udall. In your statement, you say perhaps no other 
tribal college presidents and students know better of our 
nearly daily struggle to survive as the most poorly funded 
institutions of higher education in the Country. Can you speak 
to that and to how you think this piece of legislation would 
make a difference on that front?
    Ms. Taylor. We are entirely grant funded, so that makes it 
very difficult. The tuition that we charge is about the same as 
the State community colleges in the area, but we get no State 
funding the way the community colleges do. And so that makes it 
necessary to apply for grants on a regular basis.
    Legislation like this will facilitate some of that, to know 
that there are some monies out there to help us as we 
definitely address the wellness needs of our communities in 
multi-factoral ways. And as a tribal college, I think we need 
to become the center of that health initiative.
    Senator Udall. Thank you very much.
    I also thank the other witnesses for their testimony today, 
and very much appreciate Chairman Dorgan bringing these 
important pieces of legislation before the Committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    I, too, want to thank you for holding this important 
hearing, in particular having Senate bill 443 on the docket 
today.
    I welcome Ms. Jonette Reyes to Washington. Thank you for 
traveling all this way to give testimony to this Senate bill on 
safe homelands. I was looking for the right word, safe 
homelands.
    Ms. Reyes, I don't think that someone could probably travel 
further in the continental United States to get to Washington, 
D.C. How far is the Hoh Reservation from the Pacific Ocean?
    Ms. Reyes. Right out our back door and sometimes outside 
our office window.
    [Laughter.]
    Senator Cantwell. Which is part of the problem.
    Ms. Reyes. Definitely.
    Senator Cantwell. And what is the closest city to you?
    Ms. Reyes. Well, it is not necessarily a city. It is the 
town of Forks.
    Senator Cantwell. And how large is Forks?
    Ms. Reyes. If you blink during the drive through, there is 
one stoplight. If you blink, you might miss it and there are 
some people that do. But it is not very large. There is like 
one grocery store and the nearest shopping place after that is 
probably about an hour and a half away in both directions. So 
it has maybe 3,000 and a couple of vampires. I don't know if 
you have heard.
    [Laughter.]
    Senator Cantwell. Yes, that movie is very popular. I am 
glad to know that Forks has made it to international fame in 
that particular movie that has caught everyone's attention.
    So to say that you are in a remote location doesn't even 
quite do it justice, does it?
    Ms. Reyes. No, not really. I think Forks is remote, but we 
are even more so.
    Senator Cantwell. Yes, and so having the ability to use 
whatever available land on your reservation for your own tribal 
economic sustainability is critical?
    Ms. Reyes. Yes, definitely. And you know, we already have 
an emergency management plan in the works with the county, as I 
had mentioned numerous times. And we are going to be serving 
not only our own tribal community, but the whole community of 
the west end Jefferson County. Because like I mentioned before, 
we work with the Olympic Correctional Center. We do sandbagging 
with the inmates. And you know, they have no fire protection as 
well as ourselves, and there is also in Olympic National Park 
like resort, Kalaloch Lodge. There is no fire protection for 
them as well.
    Senator Cantwell. So how much of the tribal acreage is 
buildable land?
    Ms. Reyes. Right now?
    Senator Cantwell. Yes.
    Ms. Reyes. Well, we are in the flood zone, so the land that 
we purchased right now, we are just kind of hoping for all that 
to get into trust. We need the one little 37-acre piece of 
Olympic National Park for that to happen.
    Senator Cantwell. So that you could actually have some----
    Ms. Reyes. Contiguous land all the way to the other land 
that we purchased.
    Senator Cantwell. Yes. But the purchase of that property 
had been to give the reservation some sustainable development 
land. Is that correct?
    Ms. Reyes. Correct, to move us out of the flood zone.
    Senator Cantwell. Yes.
    Ms. Reyes. We haven't been able to build anything because 
we are in a flood zone and we are not eligible to apply for any 
184 loans for home grants or anything. As I mentioned before, 
our households have two to three families per household.
    Senator Cantwell. So I know that you mentioned in your 
written testimony that you expressed your condolences to the 
people of North Dakota on the Red River who have basically 
faced this same challenge you are facing.
    Ms. Reyes. Yes, we are familiar with it. Actually, we have 
three storms coming in on Sunday. We are going back home 
Saturday night, so maybe the next day we can help sandbagging.
    Senator Cantwell. Yes.
    Ms. Reyes. So we completely understand when it comes to 
flooding.
    Senator Cantwell. So Mr. Chairman, I think this legislation 
truly is important to helping these individuals really sustain 
their current site and reservation and to provide some 
opportunity for economic development. I think it has been well 
thought out, well discussed with the various partners in the 
region. I very much appreciate Ms. Reyes traveling all of this 
way to be here to give testimony to it, and again for you 
holding the hearing on it. I hope we can move the legislation.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Mr. Chairman, thank you for moving to consider the Hoh Indian Tribe 
Safe Homelands Act so quickly.
    The situation facing the Hoh Tribe is dangerous and desperate, so 
it is important that we move as fast as we can on this bill.
    I also want to thank the Vice Chair of the Hoh Tribe, Jonette Reyes 
(Jone-ette Rays) for making the long trip from the other Washington, 
and for her willingness to testify on such short notice about this 
important piece of legislation.
    It is vital to hear directly from the Tribe about the conditions 
they face.
    Since 1893, The Hoh Tribe has occupied a one-square-mile 
reservation on the banks of the Hoh River where it meets the Pacific 
Ocean in Washington state.
    While this location may sound picturesque, the fact is that the 
reservation is bordered by:

  <bullet> An ever-changing river
  <bullet> The unpredictable Pacific Ocean; and
  <bullet> The Olympic National Park

    This severely limits the Tribe's ability to get out of harm's way 
if necessary.
    Due to repeated storms, heavy rain, and the movement of the Hoh 
River by a half of a mile, the Tribe's village is continually 
threatened with flooding during the winter months.
    In fact, areas near the reservation can receive over 100 inches of 
rain a year.
    Ninety percent of the reservation now sits in a flood plain and 100 
percent of their land sits within a tsunami zone.
    Many of the buildings located on the existing reservation are 
permanently sandbagged due to the threat of flooding. And, many houses 
have been lost to the river over the last 10 years.
    Year after year, the Hoh Tribe must battle Mother Nature as ocean 
waters threaten to wash away their homes and tribal buildings.
    These native peoples deserve to live in a place where sandbags 
aren't the norm, and it is our trust responsibility to take action.
    Transferring the ownership of a 36 acre piece of federal land 
should never be taken lightly, but in this unique situation, we are in 
the position to help these people rest a little easier.
    By transferring this land to the Tribe and taking land the Tribe 
already owns into trust, the Tribe will be able to move out of danger . 
. . and breathe a much-needed sigh of relief.
    Over 20 individuals and groups are supporting this legislation 
including:

  <bullet> The Governor of Washington, Christine Gregoire;
  <bullet> All of the local House and Senate office holders;
  <bullet> The Affiliated Tribes of Northwest Indians; and
  <bullet> The National Congress of American Indians.

    I look forward to working with you to schedule a quick markup for 
this legislation, so we can help this group of people that we have a 
responsibility to help.
    Thank you.

    The Chairman. Senator Cantwell, thank you very much.
    It is a long trip for, was it 37 acres?
    Ms. Reyes. Yes.
    [Laughter.]
    The Chairman. But you make a compelling case, and I will 
work with Senator Cantwell and Senator Murray.
    Ms. Reyes. But everything lays on the transfer of those 37 
acres.
    The Chairman. I understand.
    Ms. Reyes. Not only for us, but for our surrounding 
communities as well.
    The Chairman. You make a very compelling case.
    Let me thank all four witnesses who have come to us today. 
We wanted to hold this hearing. We will, as I said, begin a 
series of votes in the Senate very shortly. We appreciate your 
traveling long distances to make the case.
    Chairman Lupe and Ms. Reyes, Councilman Soto, Ms. Taylor, 
thank you very much.
    And we will obviously consider the testimony and begin 
working on this legislation, and we will also keep the hearing 
record open for those who may wish to submit testimony to be 
part of the permanent record. We will hold this record open for 
two weeks if there are those who wish to submit supplemental 
testimony.
    This hearing is adjourned.
    [Whereupon, at 11:04 a.m., the Committee was adjourned.]
                            A P P E N D I X

Prepared Statement of Mike Jackson Sr., President, Quechan Tribe, Fort 
                        Yuma Indian Reservation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
       Prepared Statement of Phil Gordon, Mayor, City of Phoenix

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                             Hon. Paul Soto

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
